<html>
<title> - KAZAKHSTAN: AS STABLE AS ITS GOVERNMENT CLAIMS?</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                      KAZAKHSTAN: AS STABLE AS ITS
                           GOVERNMENT CLAIMS?

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 25, 2012

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-2-2]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                   Available via http://www.csce.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-616 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          













            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,     BENJAMIN L. CARDIN, Maryland,
Chairman                              Co-Chairman 
JOSEPH R. PITTS, Pennsylvania         SHELDON WHITEHOUSE, Rhode Island   
ROBERT B. ADERHOLT, Alabama           TOM UDALL, New Mexico
PHIL GINGREY, Georgia                 JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas             RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida            ROGER F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,            SAXBY CHAMBLISS, Georgia  
New York                              MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina         KELLY AYOTTE, New Hampshire  
STEVE COHEN, Tennessee                
                               

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
               MICHAEL C. CAMUNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  [ii]













                      KAZAKHSTAN: AS STABLE AS ITS

                           GOVERNMENT CLAIMS?

                              ----------                              

                            January 25, 2012
                            
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3

                               WITNESSES

Ambassador William Courtney (Retired), Former U.S. Ambassador to 
  Kazakhstan and Georgia.........................................    11
Susan Corke, Director for Eurasia Programs, Freedom House........    33
Dr. Sean R. Roberts, Associate Professor and Director of the 
  International Development Studies Program, GWU's Elliott School 
  for International Affairs......................................     4

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    28
Prepared statement of Hon. Benjamin L. Cardin....................    30
Prepared statement of Amb. William Courtney......................    31
Prepared statement of Susan Corke................................    33
Prepared statement of Dr. Sean R. Roberts........................    38
Prepared statement of Ambassador Erlan Idrissov..................    40
Prepared statement of the Central Council of People's Front......    45

                                 [iii]

 
                      KAZAKHSTAN: AS STABLE AS ITS
                           GOVERNMENT CLAIMS?

                              ----------                              


                            January 25, 2012

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in room 200, Rayburn House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Steve Cohen, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present:  Ambassador William Courtney (Retired), 
Former U.S. Ambassador to Kazakhstan and Georgia; Susan Corke, 
Director for Eurasia Programs, Freedom House; and Dr. Sean R. 
Roberts, Associate Professor and Director of the International 
Development Studies Program, GWU's Elliott School for 
International Affairs.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And I want to 
thank you all for being here this afternoon, and especially to 
our very distinguished panel.
    Today we will discuss the state of human rights and 
democracy in Kazakhstan.
    The Government of Kazakhstan, controlled by the 
authoritarian President-for-Life Nazarbayev, has long sought to 
obscure its serious human rights and democracy deficiencies by 
claiming that at least it is a haven of stability in Central 
Asia. Stability has in fact become the basis of the Government 
of Kazakhstan's claim to legitimacy. Of course, stability can 
never be an excuse for dictatorship or widespread torture and 
similar abuses. We simply can never accept the hidden premise 
of the Kazakhstan Government's talk of stability, that human 
dignity can be bargained away in some exchange for stability.
    Likewise, we cannot accept at face value the claim that 
Kazakhstan is in fact as stable as its Government claims. This 
claim must be carefully examined. That is what this hearing is 
about today. Too often, in Washington and within the OSCE, the 
Government of Kazakhstan's claim to stability is tacitly 
accepted. And that allows the Government to set itself up as a 
model for other Asian and European countries.
    After last year's events in Tunisia, Egypt, Libya and 
Syria, we have to look carefully at authoritarian claims to 
stability--all the more since last month, when there were riots 
in Zhanaozen in western Kazakhstan, which the authorities put 
down with deadly force. At least 16 people were killed, and 
some estimates go as high as 70. Many of us have seen terrible 
videos circulating on YouTube that clearly show government 
forces firing on fleeing protesters and beating those who fell 
to the ground. I doubt many Kazakhs will soon forget these 
images.
    Radio Free Europe and Radio Liberty reported the harrowing 
testimony of a 21-year-old girl who was detained while out 
looking for her father the night of the riots. She described 
witnessing the torture, the abuse and humiliation of dozens of 
people who had been rounded up and taken to the basement of 
police headquarters, including girls who were stripped naked 
and dragged into an adjoining room. She herself was beaten. She 
reported what she saw to authorities, who returned with her a 
week later. The basement had been scrubbed clean, and the 
police claimed that nothing had happened. The woman's father 
returned home after two days. He said he had been badly beaten 
by police, and he died of his injuries on December 24th.
    There are many such stories. AP reports a journalist's main 
police department heard screams coming from what appeared to be 
interrogation rooms, while men with bloodied faces were lined 
up in the corridors with their faces against the wall. Sadly, 
reports of police abuse and torture in Kazakhstan are not new. 
In December of 2009, in his report the U.N. Special Rapporteur 
on Torture concluded that, quote, ``evidence obtained through 
torture or ill treatment is commonly used as a basis for 
conviction.''
    Since the violence in December, the Government of 
Kazakhstan has said it is open to an international 
investigation, and has said many other things that we would 
expect a responsible democratic government to say. It has also 
established a governmental investigative commission. I 
certainly hope the internal investigation will be transparent 
and serious, and that there will be an international 
investigation soon--but best of all, by the OSCE--and that many 
good things the Government has said since the violence are the 
harbinger of a new openness to reform.
    At the same time, we have reason to be skeptical. Just 
yesterday, the chief editor of an opposition paper was jailed 
as part of an investigation. So far, charges against police 
have only been for stealing cellphones and cash from 
protesters. And the focus of the investigation has been focused 
instead on the political opposition. Access to the town itself 
and to potential witnesses have been severely restricted. While 
some journalists were giving access on December 18th and 19th, 
they reported that they were under close supervision and not 
permitted to speak freely with detainees or residents.
    Prison Reform International, which the Kazakhstani 
Government claims met with detainees and found no evidence of 
torture, told my staff that they only assisted in getting 
access for local human rights monitors to a very limited number 
of detainees, far below the official number of those who had 
been arrested. Contrary to the Government's statement that no 
evidence of torture was found, in fact the monitors cited four 
suspected cases.
    There are reports that those who have tried to come forward 
may have been threatened. Surprise, surprise. At least one of 
the local monitors who visited detainees will no longer discuss 
it. The young woman I mentioned earlier will no longer speak 
about her ordeal. The persons who filmed the YouTube video from 
their window reportedly were sought by the authorities and have 
gone into hiding out of fear for their safety. Many people 
reportedly are still missing, but their families are afraid to 
come forward.
    Of course, we will also want to talk about the January 15th 
parliamentary elections, which the OSCE concluded, quote, ``did 
not meet fundamental principles of democratic elections.'' The 
OSCE details significant problems, including the exclusion of 
opposition parties and candidates, electoral commissions 
controlled by the ruling party, media bias, restrictions on 
freedom of assembly and problems during the counting process.
    I have spoken to participants in the election observation 
mission who personally observed outright fraud, including 
falsification of the final protocol in favor of the ruling Nur 
Otan party. Other American observers reported falsification of 
protocols to the party's advantage, as well as ballot stuffing 
and people being paid to vote.
    I'd like to now introduce our very distinguished panel to 
the Commission. And again, I thank you for being here, because 
your information not only is received by Members of this 
Commission, but we disseminate it very widely among the 
leadership of the House, Senate, Democrat and Republican. And 
then there's an even wider distribution, obviously, to the 
executive branch and to others in the diplomatic circles. So 
your testimonies will make a difference.
    Beginning with Ambassador William Courtney, who was a 
career foreign service officer in the U.S. Department of State 
from 1972 through 1999. In his past post--last post, I should 
say--he served as senior adviser to this Commission--so we 
welcome him back--and co-chair of the U.S. delegation to the 
review conference of the OSCE, which prepared for its 1999 
summit in Istanbul. He was an adviser in the 1999 re-
organization of foreign affairs agencies; special assistant to 
the President of Russia, Ukraine and Eurasia; and ambassador to 
Kazakhstan and Georgia.
    Earlier he headed the U.S. delegation to the implementation 
commission of the U.S.-Soviet Threshold Test Ban Treaty and was 
deputy U.S. negotiator for defense and space in Geneva. He's a 
member of the Council of Foreign Relations, on the boards of 
directors of the American Academy of Diplomacy and World 
Affairs Council of Washington, D.C. He graduated from West 
Virginia University with a B.A. and Brown University with a 
Ph.D. in economics.
    We will then hear from Susan Corke, who's director of the 
Eurasian programs at Freedom House. Ms. Corke is a skilled 
practitioner in supporting human rights and democratic reforms 
in Europe and Eurasia. Before joining Freedom House, she spent 
seven years at the State Department, first two as Presidential 
Management Fellow, and most recently as a deputy director for 
European affairs in the Bureau of Democracy, Human Rights and 
Labor, where she worked to promote human rights and democratic 
reform in some of the most repressive countries in the region, 
such as Belarus and Russia.
    She oversaw the editing for the State Department human 
rights country reports for Europe and had supervisory oversight 
of DRL's 25-plus civil society meeting and human rights 
programs in Europe. She also did stints at the U.S. embassy in 
Moscow, U.S. embassy Prague, in the Bureau of European and 
Eurasian Affairs and the Bureau of Public Affairs.
    Prior to the State Department, Ms. Corke helped found and 
manage the U.S. foreign policy institute at the Elliott School 
of International Affairs at George Washington University. She 
also worked at the German Marshall Fund, and as a media 
strategist at several advertising agencies in New York. Ms. 
Corke has a master's degree in international affairs from 
George Washington University--its Elliot School of 
International Affairs--and a bachelor's degree from the College 
of William and Mary.
    And finally, we'll hear from Dr. Sean R. Roberts, who is 
the Director of the International Development Studies Program 
and Associate Professor of Practice [of International Affairs] 
at George Washington University's Elliott School for 
International Affairs. He has spent substantial time over the 
last 18 years living in Kazakhstan, both doing academic 
research and working for the United States Agency for 
International Development.
    While at USAID, Dr. Roberts managed projects in civil 
society development, political party assistance, independent 
media development, and elections assistance. During this time, 
he also served as a short-term elections monitor for the OSCE 
missions to the 1999 and 2004 parliamentary elections, as well 
as the 2005 presidential elections in the country. He has a 
forthcoming article coming out in the summer issue of Slavic 
Review entitled ``Doing the Democracy Dance in Kazakhstan: 
Democracy Development as Cultural Encounter.''
    So we have three outstanding witnesses, and we look 
forward--beginning with you, Mr. Ambassador--to your 
testimonies.

 AMBASSADOR WILLIAM COURTNEY (RETIRED), FORMER U.S. AMBASSADOR 
                   TO KAZAKHSTAN AND GEORGIA

    Amb. Courtney. Thank you, Mr. Chairman. It is an honor to 
appear before you today.
    Kazakhstan has a population of over 16 million. Ethnic 
Kazakhs comprise three-fifths; ethnic Slavs one-quarter; and 
Uzbeks, Uighurs, Tatars and others the remainder. Given this 
diversity, the term ``Kazakhstanis'' best refers to all the 
people of the country, and Kazakhs to the ethnic group.
    In many ways, Kazakhstan is blessed. It is larger than 
Western Europe and endowed with a minerals bounty. People tend 
to pragmatism. Ethnic differences are muted--regrettably in 
part because political expression is limited. Rulers encourage 
inter-ethnic harmony--although some Kazakh advantages, such as 
political dominance, raise concerns. Selection to chair the 
OSCE last year was a mark of the country's international 
respect and weight.
    Kazakhstan has achieved notable economic gains. Modernizing 
reforms, private property, talented people, and booming exports 
of energy and minerals make the country far wealthier than in 
Soviet times. In 2010, according to the World Bank, per capita 
GDP in current U.S. dollars stood at 9,136 [dollars] in 
Kazakhstan: slightly lower than Russia's 10,440 [dollars], but 
three times higher than Ukraine's $3,007.
    These data, however, do not tell the full story. Much 
wealth disappears into corruption. Construction of the 
extravagant new capital in Astana diminishes state funding for 
the rest of the economy. The economy is unbalanced: for 
example, the World Bank reports that labor productivity in 
agriculture is just 1 percent of that in America.
    Political development in Kazakhstan is stunted by 20 years 
of authoritarian rule. The tragedy last month, to which you 
referred, Mr. Chairman, highlights the risks. On December 16, 
security forces in Zhanaozen in western Kazakhstan fired on 
unarmed demonstrators, including striking oil workers, killing 
and wounding scores. A chilling video on YouTube shows security 
forces firing on and beating fleeing people, as you pointed 
out.
    Rather than apologizing, offering amends and opening a 
credible investigation, the authorities did the opposite. They 
blamed hooligans, shut off communications to the city and 
imposed martial law. The hardline response may not have calmed 
tensions; martial law was extended. A former interior minister 
became the new regional governor--a hint of unease about the 
loyalty of security forces.
    Today, on the date of this hearing, Kazakhstan's chief 
prosecutor announced that criminal charges are being brought 
against several regional police executive and state oil company 
officials. It will be important that due process be followed 
and that judicial proceedings be transparent. Otherwise, many 
Kazakhstanis will wonder whether these officials are culpable 
for the Zhanaozen calamity, or whether they are lambs being 
sacrificed to exculpate the guilt of those higher up or better 
connected.
    The violence was an aberration in the country's generally 
peaceful life. The callous response, however, is symptomatic of 
a wide gap between rulers and ruled, between reality and 
expectations, and between those who live honestly and those who 
do not.
    In history, Kazakhs do not meekly submit to arbitrary 
power. In the 19th century, Russian colonization was slowed by 
uprisings and wars. In World War I, many Kazakhs resisted the 
czar's conscription, and then the communist takeover. A decade 
later, Kazakhs opposed brutal Soviet collectivization of 
agriculture, such as by killing their own livestock rather than 
turning it over to the State. Over a million Kazakhs perished.
    In World War II, Stalin exiled ethnic Germans, Crimean 
Tatars and North Caucasian Muslims to Kazakhstan. A million 
Poles were banished there. Many of these peoples, starving or 
ill, were taken in by Kazakhs and survived. Vast numbers lost 
their lives to Soviet cruelty. Nikita Khrushchev hurled huge 
numbers of ethnic Slavs into northern Kazakhstan for the 
wasteful Virgin Lands Campaign, aimed at turning pasture into a 
grain belt. Other Slavs built and operated raw materials and 
military facilities. Aleksander Solzhenitsyn labored in 
Kazakhstan in a prison camp.
    The Soviets used much of Kazakhstan for military purposes. 
They tested nuclear weapons at Semipalatinsk, operated the 
world's largest anthrax factory at Stepnogorsk, tested 
biological weapons in the open air on an island in the Aral 
Sea, tested anti-ballistic missiles and lasers at Sary Shagan, 
assembled torpedoes in Almaty, deployed giant SS-18 
intercontinental missiles in two locations, and conducted 
ballistic missile tests and space launches from Baikonur. Amid 
the military activity, most of the country was closed. 
Kazakhstanis had few contacts with the outside world. A vital 
lifeline was shortwave broadcasting by Radio Liberty, VOA, BBC, 
Deutsche Welle and others.
    After the Soviet collapse, Kazakhstan returned nuclear 
weapons to Russia and became a model partner in the Nunn-Lugar 
program to eliminate weapons of mass destruction and their 
infrastructure. Kazakhstan welcomes substantial U.S. and other 
investment in Caspian Energy. It is a critical partner in the 
Northern Distribution Network, which provides logistical 
support to U.S. and NATO forces in Afghanistan.
    Close cooperation on core interests has yielded a 
productive U.S.-Kazakhstani strategic relationship--one of 
America's most valued. Yet as Egypt shows, rulers must retain 
the consent of the governed in order to sustain foreign 
support. The lesson is salient for Kazakhstan.
    First, the legitimacy of personalized rule is in decline, 
and Zhanaozen is accelerating it. Transitions beyond President 
Nazarbayev, now 71, are uncertain. No evident successor has 
broad stature or appeal. Few, if any, independent groups 
combine the experience and acceptance required for effective 
political intermediation. None is so strong or enduring, for 
example, as the liberal Yabloko party in Russia or the Muslim 
Brotherhood in Egypt.
    On January 15 Kazakhstan held elections for a new 
parliament, but no genuine opposition parties were allowed to 
participate. OSCE election monitors found that the elections, 
quote, ``did not meet fundamental principles of democratic 
elections,'' end quote. In another anti-democratic step, 
earlier this week security forces raided the office of the 
opposition party Alga and the home of its leader. The 
courageous suffer. Journalist Ramazan Esergepov, labor union 
lawyer Natalia Sokolova, and human rights activists Aidos 
Sadykov and Yevgeny Zhovtis have languished in prison.
    Multiple factors, some unforeseen today, could shape 
Kazakhstan's political evolution. One might be the 
demonstration effect of the Arab Awakening. Other factors may 
include elites empowered by economic liberalization; educated 
and connected young people; restive citizens in western 
Kazakhstan; Islamic interests; disadvantaged groups; and 
Russia's policy toward neighbors. Kazakhstan's burden of 
autocracy could render its politics less resilient against 
extremist pressures.
    Second, the accumulation of wealth by President Mubarak and 
his family, and popular resentment of it, have a disturbing 
parallel in Kazakhstan. President Nazarbayev is rightly 
credited for improving the economy, but personal aggrandizement 
arouses concern and cynicism. Moreover, several in his family 
are multibillionaires. Third, Zhanaozen may propel more unrest.
    One risk is western Kazakhstan, which does not benefit 
commensurate with its contribution to the economy. Another risk 
is ethnicity. Zhanaozen was largely Kazakh-on-Kazakh violence. 
If large-scale lethal force were ever turned on unarmed ethnic 
Russians, consequences could be far reaching. The Kremlin is 
vocal about protecting the interests of Russians abroad. 
Kazakhstan's regions with higher proportions of ethnic Russians 
lie along the border with Russia--a key reason why the capital 
was moved northward.
    In conclusion, political risks in Kazakhstan are rising 
even as the economy expands. The arrogant, official response to 
Zhanaozen suggests dulled leadership awareness of human 
conditions. Repeated promises of democratic reforms go 
unfulfilled. Popular expectations may be climbing faster than 
the brittle political system can accommodate. Limits on 
independent political life weaken safety valves for peaceful 
change.
    America and Europe are widely respected in Kazakhstan. They 
should bite the bullet and do more to promote political and 
human freedoms. While some may resist, this will be a prudent 
investment in an important country and a friendly people with 
good long-term prospects. I will be pleased to answer any 
questions you might have and hear your further perspectives. 
Thank you.
    Mr. Smith. Mr. Ambassador, thank you so very much for your 
testimony and your insights. Ms. Corke.

   SUSAN CORKE, DIRECTOR FOR EURASIA PROGRAMS, FREEDOM HOUSE

    Ms. Corke. Thank you.
    Mr. Chairman, it is an honor to appear before you and 
Helsinki Commission staff today to discuss whether Kazakhstan 
is as stable as its Government claims at a pivotal moment in 
its history. I'm also pleased to appear in distinguished 
company with Ambassador Courtney and Dr. Sean Roberts.
    While working in the State Department's Bureau of 
Democracy, Human Rights and Labor, I worked in common cause 
both with Helsinki Commission staff and Freedom House, before, 
during and after Kazakhstan's chairmanship of the OSCE to press 
together for human rights improvements.
    Just over one year ago, Kazakhstan's foreign minister said 
at the OSCE summit in Astana that that was a sign of the 
objective recognition by the international community of 
Kazakhstan's successes in its socioeconomic and democratic 
development. It continued to say that they endeavored to fully 
live up to their motto--trust, tradition, transparency and 
tolerance--and be worthy of the confidence placed in them by 
the OSCE.
    Unfortunately, as we gather today to consider Kazakhstan's 
stability and human rights record, it seems that the nation is 
not deserving of that confidence. While those who supported 
Kazakhstan's chairmanship argued that it could galvanize human 
rights reform, it has failed to do so. In our recently released 
Annual Freedom in the World report, Kazakhstan continued to 
earn its ``not free'' ranking.
    This week, as we take stock of the situation, it's been a 
pretty bad week. Additional repressive measures have been 
launched in Kazakhstan, including raids of the opposition Alga 
Party offices and detentions of opposition activists and 
journalists. All of civil society feels under serious pressure 
and is nervous about what will happen next. Our Freedom House 
office in Almaty, led by Mr. Vyacheslav Abramov, and his small 
but dedicated staff, continuously working on human rights and 
reporting on developments. They are fearful now, and say that 
the common belief amongst NGOs is that NGOs will be the next 
place raided.
    I'll focus primarily today on the current human rights 
situation as gathered from their reporting, which demonstrates 
that Kazakhstan is heading down a path of increasing 
instability. The recent riots and violence are not simply a 
random outburst. A leading Kazakh NGO, The Bureau, documented 
the growth of civic engagement this past year--interestingly, 
the emergence of ordinary citizens as leading organizers of 
public assemblies, and 78 percent of these were on 
socioeconomic problems.
    As the Government severely restricts freedom of assembly, 
however, the fact that more people are willing to challenge the 
government to have their voices heard is a sign of societal 
discontent. And if theGovernment continues on its repressive 
path, more peaceful protests will turn to violent ones.
    Nazarbayev has ruled Kazakhstan with an iron fist since 
1991, and remains fixed on retaining power. When stability, 
however, is defined as keeping the lid on, it is only a matter 
of time before the pot starts to boil over. We've already 
talked about Zhanaozen. And the international community 
watched, taken aback, as violence erupted there the day of 
Kazakhstan's 20-year celebration of independence from the 
Soviet Union. For those who had been paying attention, the pot 
had been simmering there for a while, and as already discussed, 
there were some underlying elements of social unrest. The oil 
strike had been going on since last April, when a large group 
of oil workers in western Kazakhstan began to demand higher 
wages and better working conditions. While Kazakhstan has 
several billionaires, these strikes signaled that uneven 
distribution of the country's resources was sparking a 
backlash.
    Starting in May, many workers began camping in the city 
square in an indefinite protest--a challenge to a government 
that had tried and succeeded in squelching dissent. On December 
16, the situation took a deadly turn. We've already talked 
about the videos that showed police firing with lethal force at 
citizen's backs. Our reporting on the ground had 18 deaths, 
which is higher than some of the other reports. And we were 
horrified, too, to hear of the abuse in police headquarters.
    Soon after, President Nazarbayev took decisive steps to try 
to regain stability, as already discussed, imposing emergency 
rule. Surprisingly he dismissed his son-in-law, the head of the 
state oil holding company. He demanded a public inquiry and 
vowed to severely punish perpetrators. At the moment the city 
remains closed to public defenders and journalists, who may 
enter the city only if official permission is granted.
    The presidential administration, while it was swift in 
trying to usher in stability, shows no real signs of 
understanding the root causes. Nazarbaev's political adviser 
called the disorder a provocation against the president and 
then continued to say that criminals were responsible. He said: 
The president dealt with it, and the situation is back to 
normal. If only that were the case.
    We've already gone into--Ambassador Courtney went into 
detail on the elections, so I'll just note that Kazakhstan 
continued its 20-year tradition of failing to observe 
democratic norms. The election was a sham effort to meet its 
stated goals of increasing the number of parties in Parliament.
    Interestingly, two days after the election, Nazarbayev 
issued a fast rebuttal, revealing what he really thinks about 
political modernization, saying that Kazakhstan would no longer 
invite international experts who criticize its elections. The 
Government of Kazakhstan seems to only want the OSCE's input 
when it is good news.
    In looking to place blame for the growing instability, the 
obvious target was the opposition for the Government. In 
December the leaders of the unregistered Alga party in Astana 
and in the Mangistau region were both arrested. After the 
election, Vladmir Kozlov, the leader of Alga in Almaty, 
predicted Kazakh authorities would continue to try to blame the 
opposition. This has been the case.
    On Monday, police and the Committee on National Security 
organized a search in at the central office of the Alga party 
and at the homes of Kozlov and others. Several were detained, 
including Kozlov, who was then accused of inciting social 
discord. The Government said the raids were part of the 
investigation into Zhanaozen. By tightening the screws rather 
than allowing for political competition or dissent, Nazarbayev 
and his administration are on some level admitting their own 
weakness and vulnerability. A confident leader would not need 
to resort to such tactics.
    Throughout the past year, the country has been shaken by 
several attacks, mostly in western Kazakhstan, that were blamed 
on religious extremists, and the Government responded by 
cracking down and passing new legislation broadly tightening 
religious freedoms and public expression. When I visited 
Kazakhstan last August, there was a palpable sense of fear 
about what this uptick in religious extremism would mean for 
Kazakhstan. Human rights activists I spoke with warned that 
speaking publicly about the rise in extremism would cross a 
government red line.
    The restrictive law on religion soon followed, and was 
rushed through Parliament in only three weeks, in spite of 
protests from the OSCE and NGOs. It gives the Government 
unprecedented authority to regulate the activities and 
structures of religious communities and forbids prayer or 
religious expression in government institutions. The specifics 
of the law are poorly defined and leave much room for 
interpretation to local authorities.
    Shortly on the heels of that, the new National Security Act 
was signed by the President this month. It not only provides 
for the empowerment of special services, especially for 
combatting terrorism, but it allows for blocking of the 
Internet and other communication. In addition, the law imposes 
a vague restriction that those who harm the image of Kazakhstan 
in the international arena can be considered destructive. This 
law could be directed against those who criticize the country 
at international fora, such as this one.
    The Government is trying to keep the lid on freedom of 
expression in other ways too. The new Broadcasting Act was 
signed by the president in January after a year of disregarding 
recommendations made by the OSCE and NGOs. It contains a number 
of troubling regulations that give the state additional control 
over TV and radio channels. For example, 50 percent of the 
broadcasts of foreign channels must contain domestic content by 
2018. This new restrictive measure occurs in a media 
environment that is already under siege.
    Kazakhstan has preferred to view democracy and freedom as 
public relations slogans to boost prestige. It spared no 
expense in promoting itself with advertisement campaigns and 
high-level consultancies, such as Tony Blair. Admittedly, this 
has paid some policy dividends for Kazakhstan.
    However, in spite of trying to tout its harmony and peace 
of the country, an essential truth has been revealed with the 
latest violence. When citizens have legitimate grievances 
without an outlet, when freedoms are denied in the name of 
stability, instability and extremism are likely to increase.
    It is time to address the political stagnancy and lack of 
an apparent heir after Nazarbayev, officially deemed the leader 
for life. It is time for pro-democratic forces within 
Kazakhstan and the international community to start thinking 
about how to catalyze a more democratic, stable future for the 
country. Given its strategic importance, how Kazakhstan 
approaches the immediate future should be a cause for concern 
for policy-makers on both sides of the Atlantic.
    I will conclude now with five specific recommendations, 
which were developed in consultation with civil society in 
Kazakhstan.
    One, it is important to publicly, at high levels, continue 
to hold the Kazakh authorities to their international 
obligations. Kazakhstan must earn positive attention, not buy 
it.
    Two, it is important to express support for civil society 
in Kazakhstan in cases of direct repression against NGOs and 
their activists.
    Three, the time is now to increase material support for 
civil society in Kazakhstan through funding and participation 
in various programs. They need our help more than ever.
    Four, it is important to put pressure on the Kazakh 
authorities, demanding that the domestic and international 
investigation of the events in Zhanaozen are allowed to occur 
openly and transparently.
    And finally, it is important to press the Government of 
Kazakhstan to put words into action and allow political 
pluralism and not paint the opposition as the enemy. The 
opposition will hold a protest rally January 28th in Almaty and 
will try to contest the election results in courts. This is a 
test for the Government. The West should pay attention. Thank 
you.
    Mr. Smith. Ms. Corke, thank you very much for your 
testimony and your very specific recommendations. Dr. Roberts, 
please proceed.

 DR. SEAN R. ROBERTS, ASSOCIATE PROFESSOR AND DIRECTOR OF THE 
INTERNATIONAL DEVELOPMENT STUDIES PROGRAM, GWU'S ELLIOTT SCHOOL 
                   FOR INTERNATIONAL AFFAIRS

    Dr. Roberts. Chairman Smith and members of the Commission, 
I'd like to thank you for inviting me here today to speak on 
this very important and timely topic: Whether Kazakhstan is as 
stable as its Government claims.
    As I recently wrote in a briefing paper commissioned by the 
Atlantic Council on 20 years of U.S.-Kazakhstani relationship, 
the Republic of Kazakhstan is something of an oasis of 
stability in the desert of uncertainty that represents Central 
Asia.
    Indeed, this stability is also largely the result of 
intelligent policies adopted by the Government of Kazakhstan 
over the last 20 years. In the 1990s the Government of 
Kazakhstan, with cooperation from the United States, divested 
itself of the nuclear weapons it inherited from the Soviet 
Union. Also in the 1990s, Kazakhstan's Government was careful 
to adopt inclusionary policies for its Russian minority 
citizens and to establish close relations with the Russian 
Federation, which helped to substantially reduce ethnic tension 
in the heavily Russian-populated north of the country.
    During the later 1990s and into the 2000s, Kazakhstan also 
adopted substantial liberal economic reforms that helped the 
country use its natural resource wealth to stimulate growth and 
create a vibrant middle class. All of these steps have played a 
role in making Kazakhstan the strongest and most stable country 
in Central Asia, both politically and economically. And the 
Government of Kazakhstan frequently, and justifiably, takes 
credit for them.
    Unfortunately, stability is not something a state can 
merely establish once in its history. It is an ongoing duty of 
governments around the world to meet the challenges that they 
face in keeping their citizens secure. This duty requires 
adapting to changing circumstances and understanding the 
changing needs of citizens. Given the several outbreaks of 
violence that have occurred in the country over the last year, 
one can justifiably ask whether the Government of Kazakhstan 
today is adapting to the new realities the country faces and 
whether the state is as stable as itsGovernment suggests.
    After all, the Kazakhstan of 2012 is quite different from 
that of 1992, or even from that of 2002. But during the past 20 
years the same President, who continues to be advised by many 
of the same men, has led its Government. This is not a recipe 
for an adaptive government and long-term stability.
    In the interest of time, I want to focus on three critical 
and relatively recent changes in Kazakhstan's socioeconomic 
environment that, in my opinion, have contributed to the 
growing violence and tension we have seen in the country over 
the last year. I will also note that the country's present 
government has yet to sufficiently address these changes and 
may be ill-equipped to properly engage them, bringing into 
question whether the violence we have seen this year is the 
beginning of a much less stable Kazakhstan into the future.
    The first change is the rapid growth of the popularity of 
Islam in the country. In the last several years, the re-
engagement of Islam by the people of Kazakhstan, which has been 
ongoing since the early 1990s, has suddenly become apparent in 
public spaces throughout the country. As somebody who has been 
visiting the country frequently over the last 20 years, for 
example, I was struck last summer by the number of Kazakh women 
dressed according to Islamic custom in the city of Almaty, 
which is the most cosmopolitan city in the country.
    This rapid growth of public religiosity is not suggestive 
of a terrorist threat or even of an immediate move towards 
political Islam, but it does point to a changing public culture 
that is poorly understood by both the Government and the 
secular middle class of the cities. As such, it is also 
suggestive of a growing population for whom the Soviet past, 
from which Kazakhstan's current leadership emerged, holds 
little authority.
    We know very little about this growing Islamic religiosity 
in Kazakhstan, but it is likely quite diverse and represents a 
variety of different understandings of Islam. While we know 
even less about the alleged Muslim extremists who clashed with 
authorities in western Kazakhstan earlier this year, one must 
assume that these people were representative of at least one 
part of this population that is expressing its belief in Islam 
more publicly.
    Again, I will stress that I do not consider that these 
people or these events represent a serious terrorist threat to 
Kazakhstan. Rather, I believe they are emblematic of the 
inability of the present government in Kazakhstan to speak to 
the needs, perspectives, and values of an increasingly 
religious population.
    A second related development in the country is the growth 
of ethnic Kazakh nationalism. Like the growth of religiosity, 
this is a phenomenon that has been ongoing since the early 
1990s, but has taken on new characteristics in recent years. In 
particular, the large number of ethnic Kazakh Oralman who have 
come back to the country since the early 90s from exile in 
China, Mongolia, Iran and elsewhere, are now becoming much more 
integrated into society. They generally have a poor knowledge 
of Russian language, are religious and believe that they should 
have an advantage over non-Kazakhs regarding economic 
opportunity.
    This situation is increasing ethnic tension in the country, 
as well as creating fear among Russian-speaking Kazakhs in 
urban areas, who see these developments as also promoting the 
status of Kazakh language. While the country's leadership has 
tried to balance the promotion of Kazakh patriotism with 
policies of multiculturalism since independence, the growth of 
Kazakh language use and Kazakh nationalism are developments 
they are not well-placed to engage, given their political 
education in a Soviet system that shunned nationalist politics.
    Furthermore, while the ethnic tension created by these 
developments has not yet exploded into mass violence, it has 
already manifested itself in numerous violent clashes between 
Kazakhs and Uyghurs in the area of Kazakhstan between Almaty 
and the Chinese border.
    Finally, and perhaps most ominous for the present 
government, Kazakhstan is beginning to face a crisis of rising 
economic expectations that are unmet. While Kazakhstan is 
certainly the most economically viable country in Central Asia, 
the country's middle class and skilled laborers have come to 
expect their standard of living to improve on a regular basis 
after a decade of rapid economic growth. A combination of the 
global financial crisis, a leveling off of the Kazakhstan's 
post-transition growth and the burst of a substantial housing 
market bubble have stunted these improvements for many citizens 
in the country over the last several years.
    Given the awareness of the income gulf in the country, 
these unmet expectations for improved standards of living have 
resulted in increased dissatisfaction with the current economic 
situation in the country among the middle class and skilled 
laborers. This situation undoubtedly contributes to the labor 
strikes we saw in the west of the country. And the Government's 
violent reaction to these strikes show just how unprepared the 
present Government of Kazakhstan is to deal with such 
dissatisfaction.
    It should be noted that these changes in Kazakhstan's 
socioeconomic environment are not extreme and are unlikely to 
immediately cause widespread unrest in the country. In fact, in 
a democratic society such discord and socioeconomic dynamism is 
expected, and politicians in different political parties 
compete to provide the best solutions for them. In Kazakhstan, 
however, the stagnant political system has no mechanism to 
adapt to such dynamic changes. Furthermore, at a time when many 
authoritarian states have sought to implement at least gradual 
liberalization of their political systems in response to the 
Arab Spring, Kazakhstan has shown no such desire, instead 
holding controlled elections this past year that differed 
little from those held in the country over the last 20 years.
    In my opinion, the growing dynamism of Kazakhstan's society 
coupled with its stagnant political system could create a 
dangerous scenario when the country finally decides or is 
forced to decide on a strategy for presidential succession. 
With a diversification of powerful interests in the country, 
significant natural resource wealth at stake, and no experience 
with competitive politics, such a succession could become a 
flash point for substantial conflict and sustained instability.
    In conclusion, I will note that I believe that Kazakhstan 
has the capacity to adapt to these changes, given the country's 
rich human resources and relatively broad economic prosperity. 
To do so, however, the country must begin taking measures 
towards a liberalization of its political system now. The 
gradual development of a competitive and transparent multiparty 
political system now can prepare the country to deal with 
presidential succession. But if Kazakhstan waits until a 
succession crisis ensues to implement such reforms, I fear it 
may be too late.
    Thank you.
    Mr. Smith. Thank you so very much for your testimony. You 
know, within the last couple weeks, as you know, President 
Nazarbayev put into effect a couple of new laws--one, putting 
further controls on broadcast media, but the other that would 
make it a crime to damage the image of Kazakhstan. It occurs to 
me that, as the three of you have been simply telling the truth 
and giving your best insights, all three of you--and I have to 
put myself in that category as well--broke the law. I wonder if 
you might speak to that law. It's obviously too soon to tell, I 
think, if anybody has been rounded up under its provisions. But 
what will it do? You know, how much time might one get if you 
hurt the image of Kazakhstan?
    Ms. Corke?
    Ms. Corke. Now, as you mentioned, it provides for the 
empowerment of special services, especially for combatting 
terrorism. It also allows for the blocking of Internet and 
fixed and mobile communications. As you noted, it imposes a 
vague restriction that those who harm the image of Kazakhstan 
in the international arena can be considered destructive. So 
you're right. This sort of fora is the--exactly the sort of 
thing that may cause our passports to not get visas. But it's 
interpreted as closing off further dissent, closing themselves 
off to the West, which is--you know, contravenes their 
chairmanship of the OSCE and all of their declarations of being 
committed to political liberalization and modernization. These 
things seem to be mutually exclusive with this law.
    Mr. Smith. It occurs to me that it is so parallel to what 
the Chinese Government does, with disharmonious activity on the 
part of dissidents. It's often used as one big vague way to 
round up people and put them into the laogai for long periods 
of time. So I think it's a very ominous escalation or further 
sinking into the abyss of dictatorship.
    Let me ask you, if you would--you know, the Kazakhstani's 
Government and the embassy right here in Washington has put 
forward what many must think is a very slick campaign, a PR 
campaign, portraying the riots in Zhanaozen as instigated by 
hooligans and the recent parliamentary elections as democratic, 
free and fair. And I mean, honestly, do they think governments 
and do they think people, especially a country like the U.S. 
that does have a free press, are so foolish to buy into what is 
so transparently a propaganda--in the worst sense of that 
word--effort? Or do they think they might get away with it?
    Amb. Courtney. Earlier last year, President Nazarbayev had 
an op-ed in the Washington Post, which could have been written 
by the propaganda department of the Kazakhstani Government. So 
yes, one would have to assume that Kazakhstani officials 
believe that, in some cases, some official statements can be 
given currency beyond what dispassionate analysis of the facts 
and conditions would suggest.
    Mr. Smith. And Dr. Roberts?
    Dr. Roberts. I'll just add that--I mean, it's an 
interesting phenomenon because so few people in the United 
States know much about Kazakhstan. And I think sometimes, you 
know, if you look at some of these things that come out as 
communications in the U.S. that are obviously public relations 
attempts, if you know something about Kazakhstan, they seem 
quite silly. But I would believe that people who don't know 
anything about Kazakhstan may take them very seriously. And of 
course, it's also well known that U.S. consulting firms assist 
them in these endeavors.
    Mr. Smith. Do you know who's assisting them right now?
    Dr. Roberts. Actually, I don't know because I think their 
former company was removed, if I remember correctly. So I'm not 
sure exactly right now, but maybe some of the other panelists 
do.
    Mr. Smith. You know, it is tragic and I would say beyond 
tragic that very often that is the case. I know that Frank Wolf 
and I have been raising the alarm on another country, Sudan, 
which just got the OK from the Obama administration to allow a 
representative group to present talking points that would 
appear to put a gloss over, you know, Bashir's terrible and 
despicable crimes against humanity. He ought to be at The 
Hague, as we all know, being held to account for those crimes, 
and yet he now is being represented in a way that puts a good 
finish on his terrible crimes.
    Let me ask you, if I could, about the new religion law, 
which they, in Kazakhstan, defend as aimed at preventing 
Islamic radicalism. Your sense of that law--how bad is it? How 
will it affect the various religious groups and individuals? 
And as you know, Kazakhstan is not--you know, has been reviewed 
and has not been designated a country of particular concern 
under the International Religious Freedom Act of 1998. Does 
this new law and recent events make a case that the department 
ought to do that? You know, the--[off mic]--your thoughts on 
that, whether or not they should get CPC designation?
    Ms. Corke.
    Ms. Corke. As far as whether it should receive CPC 
designation, I'd say it's too soon to tell.
    Mr. Smith. OK.
    Ms. Corke. You know, authorities are making the argument 
that the new law on religion will help combat extremism. 
Critics warn that the restrictions under the new law could 
backfire and fuel extremism rather than combat it. So at this 
point and one of the urgent things that our office is working 
on, prior to the swift passage of it, they were trying to 
mitigate and advocate with the Government against some of the 
worst provisions of the law. But it was passed so quickly, with 
such determination from Nazarbayev and his Parliament, that 
there was no time for us to have our voices heard on that.
    But what we're focused on now is monitoring the 
implementation and raising awareness in the international 
community when there's any problematic implementation of it. I 
will note that they were in such a rush that before the law was 
even enacted, authorities started using it as grounds to harass 
and detain members of the New Life Church and Jehovah's 
Witnesses and raid these groups' properties. So they were in 
such a rush, they didn't even wait for the legislation to go 
through. But international, domestic civil society and 
religious organizations, including Kazakhstan's top Muslim 
cleric, took issue with several provisions in the law and think 
that it will drastically curtail Kazakh citizen rights to 
freedom of religious belief. So time will tell.
    Mr. Smith. I would hope that all of you and--would be 
looking at that and whether or not--I know the U.S. Commission 
on International Religious Freedom is watching it very 
carefully as well, because it seems to me that we have been far 
too slow to designate country CPC and far too quick to lift it 
when there's even the slightest hint of a thaw, when it comes 
to religious persecutions.
    And I say that--yesterday in this hearing room, I chaired a 
hearing. It's about the eighth one I've had on human rights 
abuses in Vietnam. Obviously, it's a whole different country 
but some of the dynamics on how we respond to human rights 
abuse apply. And the situation has so deteriorated in Vietnam 
against Catholics, Christians, the Montagnards, Protestants, 
the Buddhist Unified Church of--Buddhists, that the fact that 
they're not CPC is outrageous. And yet, again, this slow 
response--it was lifted in order to get the bilateral agreement 
and, particularly, most favored nation status effectuated for 
Vietnam. They made no change. They got worse, and, again, no 
CPC.
    And I know we have concerns about Kazakhstan. We have 
interests relative to our troops. But if the price is to 
tolerate significant human rights abuse, I would think that 
that's too high of a price. And I would appreciate your 
thoughts on how well or poorly you think the Obama 
administration and the State Department, the U.S. Congress is 
dealing with Kazakhstan. Are we speaking forcefully and 
accurately about what is going on there, with perhaps some 
penalties if they don't change?
    Mr. Ambassador?
    Amb. Courtney. One of the remarkable things about U.S. 
policy toward the former Soviet Union for the last 20 years has 
been how remarkably bipartisan it has been. There was a very 
smooth continuity from the President George H.W. Bush 
administration to the Clinton administration in terms of the 
emphasis on supporting territorial integrity, sovereignty, and 
independence of the new independent republics; building 
democracy in the region; providing assistance through USAID and 
other mechanisms--National Endowment for Democracy, programs 
carried out by the International Republican Institute, National 
Democratic Institute, International Foundation for Electoral 
Systems. Those programs have had strong bipartisan support all 
the way.
    I would argue that, by and large, our policy has continued 
to be generally bipartisan for most of those countries. And in 
Kazakhstan, in particular, we have to consider the enormous 
interest that the United States has--one I discussed at some 
length, the military activities in Kazakhstan. Kazakhstan has 
dismantled an enormous amount of infrastructure for weapons of 
mass destruction. And that came because Kazakhstan saw that 
America was a strategic partner.
    The second consideration is Caspian Energy. At the 
beginning after the Soviet collapse, a lot of oil companies saw 
that Russia had the largest reserves, but it was Kazakhstan, 
being more moderate, which negotiated the first arrangement for 
a super--the Tengiz Arrangement, initially negotiated by 
Chevron.
    The third consideration now is that with the situation in 
Afghanistan and Pakistan and with the proposed withdrawal or 
drawdown of American troops--which has a fair amount of 
bipartisan support in the United States--if transportation 
through Pakistan is going to be limited, the retrograde--the 
withdrawal of U.S. forces and equipment via surface 
transportation--is going to depend very heavily on cooperation 
with Kazakhstan, with Russia, other Central Asian countries. So 
we have quite a few interests at stake, and no single interest 
can be pursued to the exclusion of the others.
    But that said, I would say that the statements by the State 
Department and our U.S. ambassador to OSCE about the elections 
have been fairly honest and straightforward statements. And the 
work that this Commission does to hold the executive branch to 
a high standard has been particularly important and helped.
    Dr. Roberts. I would just add, I think that Kazakhstan is 
the type of country that the U.S. should be engaging on these 
issues. I don't think that necessarily sanctions and just pure 
criticism is going to really get much accomplished with the 
Kazak Government. And Kazakhstan--and one of the, I think, very 
positive things about Kazakhstan is that it does have a fairly 
broad base of elites. And I think there are people who are 
close to power in Kazakhstan who have very different ideas 
about what should be done, than kind of the old guard that's 
been in power for 20 years.
    So I would advocate for engagement. I think it's important, 
at the same time, that the U.S.--one of the things the U.S. has 
done in the past and, I think to a certain degree, continues to 
do is speak out of both sides of its mouth about issues of 
democracy and human rights in a country like Kazakhstan, where 
we have an interest in oil reserves and we have security issues 
that we're interested in. I think it's important to be very 
straightforward about how important issues of democracy and 
human rights are to the United States' interest in the country 
and not short sell them. But on the other hand, I think that we 
really need a policy of engaging Kazakhstan, because I think 
that that's going to bear much more fruit than just beating 
them up.
    Mr. Smith. Ms. Corke.
    Ms. Corke. If I may add, so while I was at the State 
Department in the Bureau of Democracy, Human Rights, and Labor 
and while at Freedom House, my role has been advocating the 
human rights and democracy part of the policy equation. So 
while in full recognition that it's a complex policy 
environment and our bilateral relationship, there's a range of 
interests--oil and gas, the Northern Distribution network, a 
restive neighborhood, economic interests--at the same time.
    And I was in the State Department in the lead up to 
deciding whether or not Kazakhstan would be chosen as the 
chairman-in-office, and making sure that it lived up to its 
commitments in all three dimensions, and it was found to be 
sorely lacking in the human dimension area; and leading up to 
that, pressing them to live up to those commitments. And even 
during its chairmanship, it didn't.
    So I would say that continuing to make sure that human 
rights and democracy, particularly at this juncture, remains 
high as far as the policy balance is really important. I've 
seen internal battles on kind of the relative weight of the 
various policy interests, and it's important to have 
consistency of support for human rights and democracy concerns, 
because if we lose the limited space that still exists, it will 
be hard to regain in the future.
    Mr. Smith. I appreciate that. You know, you mentioned the 
chair-in-office and the considerable debate, although there 
should have been more, about whether or not that was a wise 
decision. I strongly oppose that, on the record, believing that 
we needed deeds first, and followed by a modest but a very real 
reward as being chair-in-office.
    And I wonder sometimes that when we put the cart before the 
horse, you know, history has told us in country after country--
and I believe it's accurate, I would like to know if there's an 
example that shows it otherwise--that usually the day they get 
it or the day they get whatever the benefit, is the pivotal day 
when they start turning the other way. And I'll give you two 
examples. When we delinked most favored nation status from 
China on May 26, 1994, China went into a slide on human rights 
abuse. It was already bad--became much worse.
    Even more telling--and, again, subject of yesterday's 
hearing, in part, on Vietnam right here in this room--when the 
bilateral agreement was agreed to with Vietnam, they were taken 
off CPC by John Hanford, the ambassador-at-large, with a hope--
he called them ``deliverables''--that they promised him and the 
department they would come through on--forced renunciations, 
all those things that were happening. And there was an 
abatement of repression up until bilateral agreement and MFN 
conference, and that was the end of it. It went into Block 
8407, patterned after Vaclav Havel's Charter 77, a beautiful 
manifesto on human rights and democracy. All these signers came 
forward and signed it, and that became the hit list for the 
secret police in Vietnam, soon as they got the bilateral 
agreement through an MFN from the United States. The chair-in-
office of--you know, wasn't as big, certainly. But I think in 
retrospect, we've got to get a lessons learned--I would say to 
all of us, that--get some concrete actions on the ground, not 
even vague promises before.
    And I met with the Kazakh parliamentary assembly members--
some of whom go to these parliamentary assemblies that we have 
frequently. And I can say ``deeds, just do deeds; all we care 
about is your people.'' You know, this isn't bashing Kazakhstan 
because it's some kind of sport. This is all about standing in 
solidarity with your oppressed people, who you could be next if 
you fall outside the parameters that have been circumscribed or 
established by the leadership and by the police.
    So, you know, I sometimes wonder if the OSCE was changing. 
Mr. Ambassador, you might want to talk to this. The same thing 
happened with Belarus. When we invited the Belarusians into the 
OSCE Parliamentary Assembly, and I kept saying, let's see deeds 
first before--they were already in the OSCE--the president of 
the PA from the U.K. lamented a year later how disruptive and 
how--what a mistake it was, because there was no movement on 
the ground; if anything, they got worse. So you might want to 
speak to that.
    And sometimes I think they try to change, then, what the 
human dimension provisions are all about, as well as election 
observations. All of a sudden they're siding with those who 
want a less robust effort, because chair-in-office certainly 
conveys considerable power. So, Mr. Ambassador.
    Amb. Courtney. Mr. Chairman, let me offer two perspectives 
on that issue.
    Mr. Smith. Yes, sir.
    Amb. Courtney. One, sir, that you and the Commission and 
the U.S. Government are going to be facing is with Ukraine's 
impending chairmanship of the OSCE.
    President Nazarbayev used the chairmanship of the OSCE 
internally and externally as a very important legitimizing tool 
for his reign. So how do you think Kazakhstanis now interpret 
President Nazarbayev's recent statement that he will not invite 
election observers who criticize Kazakhstan?
    Mr. Smith. Do they get to hear that?
    Mr. Smith. [Inaudible]--press, yeah.
    Amb. Courtney. So what's happened is that President 
Nazarbayev raised expectations in Kazakhstan about its role and 
the way it might evolve. And now that's actually made it more 
difficult for him to be hard-line in a convincing way in his 
country. And I think that's putting more pressure on him.
    The second consideration----
    Mr. Smith. If I could----
    Amb. Courtney. Oh yes.
    Mr. Smith. Mr. Ambassador, is that true even in spite of 
the crackdown on the media and the most recent laws--the 
Internet and all the other--the broadcast new law? I know it's 
not soundproof--remember, ``the Iron Curtain isn't 
soundproof,'' that famous Radio Free Europe expression? But if 
you control the media, you still control what a lot of people 
get to hear and say--and think.
    Amb. Courtney. Yes, that's quite true.
    Mr. Smith. OK.
    Amb. Courtney. But still, publicly in Kazakhstan, President 
Nazarbayev raised a lot of expectations with OSCE. And then now 
each one of these new laws that you just cited makes it more 
complex for him internally to justify doing that, based on the 
raised expectations. And as Professor Roberts pointed out in 
his presentation, this clash of reality and expectations is 
going to be one of the major political dynamics that affects 
his legitimacy and the transition beyond President Nazarbayev.
    Second consideration, sir, is Central Asian security in the 
wake of U.S. and NATO withdrawal from Afghanistan. The one area 
in which Russia has made clear that it might be open to 
cooperation with the United States and Central Asia is 
counternarcotics. It has said this over and over. Yet effective 
cooperation is going to be difficult if Russia keeps the United 
States out of Central Asia, as many in Russia seek to do. There 
seems to be a schizophrenic approach in Russia about how it 
should deal with America's role in Central Asia, although the 
clear predominant view is to remove U.S. participation in the 
Manas air base and to have the U.S. take a lesser role.
    The Russian Government, though--as we've seen in the North 
Caucasus, does not have a good strategy for how to deal with 
Islamic extremism. And security threats from Afghanistan as 
U.S. and NATO forces withdraw could increase. Now I'm not 
saying that they will, but they could increase. And it 
certainly would be prudent on the part of Russia, the United 
States, Kazakhstan and other countries in Central Asia to take 
advantage of the intermediation of the OSCE, which has 
legitimacy, and the OSCE has field presence in those 
countries--to start thinking harder about security arrangements 
and security cooperative mechanisms with that impending change.
    So I think the shift in the center of gravity of the focus 
of OSCE toward Central Asia, caused by Kazakhstan's 
chairmanship, has not been a bad thing. Frankly, I believe too 
many OSCE resources have been lingering too long in countries 
that are hoping to get into the European Union, and not enough 
out where some of the danger zones are.
    So there was that benefit as well, but that benefit will be 
vitiated if political openness in Kazakhstan does not improve, 
and especially if it gets worse. Thank you.
    Mr. Smith. Just to be clear in terms of my position, it 
wasn't that Kazakhstan could never be chair-in-office----
    Amb. Courtney. Right.
    Mr. Smith.--it was only when certain benchmarks were 
achieved. Would any of our other witnesses like to----
    Dr. Roberts. I think one other thing that I do perceive as 
kind of a chronic problem in the United States' approach to 
Kazakhstan is, there's a general belief that Kazakhstan doesn't 
need the United States. There's a sense that they have these 
other partners. They have Russia; increasingly China is a major 
trading partner and a major ally.
    But I think it's important to realize that Kazakhstan's 
always been very interested in having a very good relationship 
with the United States, because precisely their other partners 
are countries they don't necessarily trust exclusively. I think 
there's a lot of suspicion of China's interest in Kazakhstan 
among Kazakhstanis, including within the Government. And there 
always has been a certain reticence to be dependent on Russia.
    So I think it's important that the U.S. recognizes where it 
does have leverage, that there is an interest. It is important 
to Kazakhstan that they have a strong relationship with the 
U.S. And we have to at least express what that relationship 
means to us beyond just the oil and gas and security issues.
    Mr. Smith. One final question, and I'd like to yield to 
Janice Helwig for a question or two, our expert on the 
Commission. And back to Zhanaozen very briefly: The Government 
has suggested that they would allow an international 
investigation. Do we take that at face value? And in your view, 
how quickly must that be done so that evidence, information, 
victims' testimonies, can be appropriately received without 
retaliation to those who might come forward? I mean, the fear 
has always been, you get somebody's equivalent of a deposition, 
the next thing you know, they're in prison. Can it be done? 
Should the OSCE do it? U.N.? Some other, you know, cobbled-
together investigative team? How do you think it should be 
done, and can it be done?
    Amb. Courtney. That offer was suggested at the very 
beginning.
    Mr. Smith. Yes.
    Amb. Courtney. We've had a month of experience now and seen 
no sign that the Kazakhstani suggestion of an international 
investigation was a serious offer. There have been 
circumstances in a variety of countries in which incidents that 
are murky in nature have raised questions, and the United 
States has offered the support of the Federal Bureau of 
Investigation investigators to help look into circumstances. 
I'm not in government, but I'm not aware that Kazakhstan 
immediately invited that kind of participation, or that FBI or 
international law enforcement or investigatory authorities have 
been involved in any of the arrangements.
    Now as I mentioned in my statement today, the prosecutor 
general in Kazakhstan announced that a number--a small number--
of regional police executive authorities and a mayor and a 
former mayor and some officials of the state oil company 
there--are going to be held criminally liable. But that came 
out of the blue with no transparency, although sometimes that 
happens.
    But from the point at which you announce that people may be 
held criminally liable, that they're being charged, there 
should be transparency in the proceedings, in the trials and 
other things, to build confidence among Kazakhstanis that 
indeed these people are culpable. And so right now is the most 
important time, I think, to hold Kazakhstan to account for 
having a judicial process that is worthy of an independent 
judiciary.
    Mr. Smith. Thank you.
    Ms. Corke. I agree that it's vitally important that there 
be a full international and domestic investigation. The state 
of emergency is on until January 31st, so up until now there's 
been--it's been virtually a closed environment for information, 
which is dangerous. And they have not shown--while saying that 
they intended to fully investigate and find the perpetrators--
they haven't shown a real interest in doing so. Their only 
interest, I think, is in portraying that as criminal elements 
as opposed to really wanting the answers to that.
    So yes, I think it's important that the U.N. be allowed in 
to do an expert investigation. And I think if the OSCE could 
field a team to go in as well--which would also remind 
Kazakhstan of its commitments within the OSCE--so I would 
encourage the OSCE to continue----
    Mr. Smith. Are there U.N. agencies--any treaty bodies, 
panel of experts, investigative teams, actively looking to go 
in--Arbitrary Detention, for example, the working group?
    Ms. Corke. They have announced that they--I think it was 
the prosecutor general that announced that a U.N. expert 
working group would be allowed into the country. But to my 
knowledge, it has not----
    Mr. Smith. OK.
    Ms. Corke.----been given a mandate yet to go in.
    Mr. Smith. Thank you.
    Dr. Roberts. I would just add that, if there was any 
interest from the Kazakh side of the FBI going in, I think that 
would be a very bad idea, because there is experience with 
that--I think it was in 2005, there was a suspicious killing of 
a prominent opposition figure, Altynbek Sarsenbayev. And when 
that happened, the U.S. Government did bring in some FBI 
assistance.
    And the problem was that they probably did good work, but 
none of the information ever got out to the public, what their 
findings actually were. And subsequently there were trials that 
were--did not have due process and so on. And so it just became 
that the FBI investigation was somehow linked to a bad process 
overall, and it was a--I think a mistake.
    Mr. Smith. Thank you. Ms. Helwig.
    Ms. Helwig. Thank you. I would like to just add a couple of 
questions. First I'd like to talk a little bit more about the 
recent parliamentary elections. As we've talked about, the 
Kazakhstani Government has worked hard to create an alternate 
narrative about the parliamentary elections and their conduct--
and has even gotten Western experts, parliamentarians, other 
organizations like the CIS to provide public positive 
assessments of the elections. You can find a list on the 
embassy's website if you go to that here.
    At the same time, we've also talked about the authority's 
moves against the Alga party in the wake of Zhanaozen, and also 
that Alga's never been allowed to register and wasn't allowed 
to participate in the elections. And what I wondered is, why do 
you all think that the Government has felt it so necessary to 
control the electoral process so much by preventing the 
opposition parties and the candidates from running; controlling 
almost all of the levels of the electoral commissions; and 
manipulating the count, certainly in some polling stations, 
including the one where I observed? And why do you think they 
find Alga in particular such a threat? Or do they find it a 
really serious threat?
    Amb. Courtney. If I may, you know, in Russian history and 
the Bolshavik period, the word ``spark'' played an unusual 
role. And when you asked the question, I was thinking you were 
going to ask about Yabloko in Russia. But in fact we're seeing 
a very similar circumstance there.
    My sense is that leaders in former Soviet countries that 
have authoritarian regimes--which in some cases have been 
popular, whether it's Vladimir Putin or Nursultan Nazarbayev--
and in which there are no credible people of national stature 
who've had an opportunity to express their views politically, 
or had access to free media--these figures can be for awhile 
sort of generally popular, or ``acquiesced in'' may be a better 
word in some circumstances, but leaders may still be scared.
    They are scared even of a small party, of Grigory Yavlinsky 
in Russia or the Alga party in Kazakhstan. There could be a 
leader who could start off with maybe not much knowledge by the 
electorate, but after voicing opinions in an open political 
debate, could catalyze greater support. So I think it's the 
fear of a potential spark, even from a small source.
    Dr. Roberts. I think--I mean, the short answer is, why they 
control the process is because they can, and it's worked so 
far, so why change it? I think that that, you know, may really 
be the perspective of the powers that be.
    In terms of--I mean, I've found that Kazakh--one of the 
interesting things about Kazakhstan is the politics are much 
more complex than they look like--than they look on the 
surface. And there's a history behind every relationship.
    I would think that one of the reasons that they're 
concerned about Alga is they feel that there are certain former 
government officials who are injecting money into it and 
support it, and that these kind of personal vendettas, in my 
experience, are extremely important in Kazakh politics. So I 
think that that's part of the reason.
    Ms. Corke. To add to that, the Russia comparison is an apt 
one. I remember some media reporting saying that the problem 
with Russia having the huge demonstrations after the election 
was that it allowed a little bit of openness. And Kazakhstan 
was not going to make the same mistake, it was making sure to 
clamp down.
    I was in Russia after the elections and attended the 
protests of 100,000 people. And I couldn't believe I was seeing 
this in Russia that, you know, we've seen even a protest of 200 
people be cracked down on so harshly. And I think Kazakhstan is 
very much afraid of that same thing.
    I'll just mention one other thing, that in addition to 
being scared that the Alga party could gain some popular 
support, they're also scared of, if they had access to the 
media, what sort of information they might reveal, such as 
corruption, murders, other abuses. So keeping them sidelined 
and portraying them as enemy number one of the Government and, 
you know, now trying to blame the Zhanaozen events on them is 
trying to find somebody to blame for what's going on in the 
country other than the Government.
    Ms. Helwig. Thank you. And just to follow up on that, a bit 
more on media and Internet issues. We've talked about the new 
broadcast media law and also the Internet law, which went into 
effect a few years ago. The Government seems to know exactly 
how to use all these new media; they certainly were using 
Facebook and Twitter and Internet updates after Zhanaozen. They 
brought a team of bloggers into Zhanaozen right after the 
events and actually posted their blogs on the, I believe, prime 
minister's website, if I'm not mistaken.
    At the same time, independent bloggers seem to have been 
gone after after Zhanaozen. One even reported having a gun held 
to his head while his film was taken--his video was taken. 
We've seen an editor of a major newspaper arrested, Stan TV and 
other broadcasters gone after after Zhanaozen.
    I wondered if you could talk a little bit about how you 
think the new broadcast law might restrict TV, what the state 
of Internet control is, and in particular the role of social 
media in Kazakhstan, particularly among the younger generation. 
I know when I visited there it seems to be that even though 
there are controls on it, everybody's seen the video of 
Zhanaozen, even though it's certainly not been shown on 
national television.
    So if you could just discuss a little bit about that.
    Ms. Corke. To start out with the social media question, 
it--there was a big discussion in social media after Zhanaozen 
on the reason and the role of the Government and the opposition 
in those events. One thing to mention, that most of the 
citizens of Kazakh are using Russian social media, which is 
more apolitical. So there isn't the same full openness of views 
exchanged. Only about 350,000 people are on Facebook and less 
than 100,000 are using Twitter. So those tools have not been 
fully realized in the country.
    So young people are using social media. What our office is 
reporting, though, is that it's more for entertainment than 
searching for information purposes, and that the Zhanaozen 
events were sort of a--them following that so closely was a 
relatively new development.
    Amb. Courtney. Let me talk about our media. We made a 
mistake in ending the Kazakh service on the Voice of America. 
That mistake needs to be corrected. Kazakhstan is too important 
a country to have been excluded.
    Secondly, Russian is still the language throughout Central 
Asia. VOA should establish a Central Asian Russian service run 
by Central Asian broadcasters to expand information.
    And again, if we're in a circumstance of withdrawal or 
drawdown in Afghanistan, which is going to lead to greater 
insecurity in Central Asia, it's time now to start making these 
kinds of prudent, very cost-effective investments. The Kazakh 
service that Radio Liberty has had has been very important. 
But, even Radio Liberty broadcasts in Kazakh and Russian, 
oriented toward Kazakhstan and Central Asia, should be 
strengthened.
    Dr. Roberts. I'll just add that I think that the Kazakhstan 
Government has always seen the control of the media as probably 
its most important mechanism for preventing political dissent. 
And they've been very, I would say, smart about how they've 
gone about it. They have not done the type of things you see in 
Uzbekistan, where you completely cannot access opposition 
media. They just limit it so--they understand that there's a 
certain number of people who are going to be with the 
opposition. And if they can limit access to that information, 
allow those people to share it amongst themselves, then they 
feel that they're fine--that's it's safe.
    So it's always been to limit the ability of the 
opposition--the opposition has no access to television. You 
know, they've really only had the print media to date, and 
they've always tried to limit the ability to get those 
newspapers out.
    Now, that said, the Internet is an interesting dilemma for 
Kazakhstan, I think, because it's much less predictable. And I 
haven't really looked at this new law, but my guess is that 
that would be a major part of it, is trying to decide how 
they're going to be able to limit access to the Internet.
    Ms. Corke. Just to add to that, the new law will 
essentially allow them to intensify a trend that we saw already 
in the past year, that the Government, under the guise of 
extremism and countering terrorism, expanded their attempts to 
identify websites that had supposedly, quote, ``destructive 
content,'' blocking the blogging sites LiveJournal and 
LiveInternet.ru and 20 other sites. So I think they're adding--
they already have a lot of tools to crack down on media freedom 
and the Internet, but they're just stacking their arsenal, I 
think, with the new law.
    Mr. Smith. Let me ask one final question on sex trafficking 
and trafficking in general. As you might know, Kazakhstan was 
designated a tier two country in the last round, and obviously 
the data calls are out or are going out and we'll know soon 
whether or not progress continued. And perhaps based on what 
you've heard, is that trend continuing? Kazakhstan is a 
destination and, to a lesser extent, source and transit country 
for women and girls subjected to sex trafficking and for men, 
women and children subjected to conditions of forced labor.
    Our TIP Report for the most recent report--and that would 
be for the year 2010--said that while Kazakhstan does not fully 
comply with the minimum standards for the elimination of 
trafficking, it is making, however, significant efforts to do 
so, and noted in pertinent point that there was a significant 
decrease in the use of forced child labor in the cotton 
harvest, increased law enforcement efforts against human 
trafficking, and they passed a law that hiked penalties. And 
I'm wondering if any of you have any knowledge or information 
or insight as to whether or not that trend continued into 2011. 
That would have been for 2010 calendar year.
    Ms. Corke. That's something I can get back to you with more 
information.
    Mr. Smith. OK, thank you.
    Ms. Corke. My understanding of the situation has not been 
that there's been a huge change in the situation, but I can 
talk to our staff in Almaty and see if they could get us some 
more updated information. But I haven't witnessed a huge 
change.
    Mr. Smith. Thank you. I want to thank our very 
distinguished witnesses for your testimony. If there's anything 
you'd like to say before we close? Mr. Ambassador?
    Amb. Courtney. Sir, you made reference to the Arab 
awakening earlier. In the former Soviet Union, many people 
believe that Western Europe is more politically mature, as well 
as more prosperous. Many people believe that those are the 
kinds of conditions to which people should aspire in the former 
Soviet Union, even as many disagree about what should be the 
tradeoffs today between democratic change and economic 
advancement in Russia or Kazakhstan or other countries.
    The Arab awakening has had an interesting impact on the 
former Soviet Union. Without overgeneralizing, many people in 
the former Soviet Union have tended to believe that political 
culture in the Arab world has been less advanced than in the 
former Soviet space. For people in the former Soviet Union to 
see young people have the courage go out into the streets in 
Tunisia, Egypt, and now especially in Syria, where young people 
are going out in the streets every day risking death, fighting 
for some measure of greater political equity or more 
competitive, more open political arrangements--and those goals 
may vary widely in Syria, in part because of the ethnic makeup 
of the country--but for people in the former Soviet Union to 
see these young people going out and risking injury and death 
every day for some more responsive political system, that, I 
think to some extent, is embarrassing for many people in the 
former Soviet Union, because we haven't seen people in the 
former Soviet Union go out and take those same risks day after 
day. So I think this has, if you will, concentrated the mind a 
bit in the former Soviet Union, among a number of people whom 
we today can't predict how they will react. And the impact may 
be very different in Ukraine or Russia or Kazakhstan or other 
places.
    But I think what's happening in the Arab Awakening is 
concentrating the mind, and probably is going to have a helpful 
effect in the former Soviet Union and cause people to think 
harder about the choices they should be making for greater 
political openness and greater political and human freedoms.
    Mr. Smith. Yes, Dr. Roberts.
    Thank you, Mr. Ambassador.
    Dr. Roberts. To add on that, I think one of the 
interesting--going back to a media issue, the people of 
Kazakhstan consume Russian media on a steady diet.
    And so I think that the changes that happened in Ukraine in 
2005 and in Georgia--that didn't really have much influence on 
people in Kazakhstan. But if we do see that these protests in 
Russia continue and we see that there's even any kind of--any 
kind of change coming out of the next presidential election in 
Russia, that would have massive impact, I think, in Kazakhstan, 
because I think most people in Kazakhstan kind of see Russia as 
their reference point. And that's partially just because that's 
what they watch on TV every day. And you know, I think if they 
saw changes in Russia, that would very quickly translate to 
changes in Kazakhstan.
    Ms. Corke. I'd just like to say thank you for holding this 
panel today. It's very important. And I'd like to end just on a 
final note. Civil society--and our office as well has noted 
this--that they've noticed a waning interest from the 
international community in civil society, following 
Kazakhstan's chairmanship. And right now, they need the 
attention of Europe and the U.S. more than ever. So I would 
urge the U.S. to give support vocally and materially to civil 
society and urge European counterparts to do the same. Thank 
you.
    Mr. Smith. Excellent point. And this Commission will 
certainly try to do that as well. And I thank you for all of 
your very valuable insights, your--this is of extraordinary 
benefit to the commission and, I hope, to the rest of the 
Congress by extension. Without any further ado, the hearing is 
adjourned, and I thank you again.
    [Whereupon, the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


            Prepared Statement of Hon. Christopher H. Smith

    Good afternoon and welcome to our witnesses and everyone joining 
us. Today we will discuss the state of human rights and democracy in 
Kazakhstan.
    The Government of Kazakhstan, controlled by the authoritarian 
``president for life'' Nursultan Nazarbayev, has long sought to obscure 
its serious human rights and democracy deficiencies by claiming that at 
least it is a haven of ``stability'' in central Asia. ``Stability'' has 
in fact become the basis of the government of Kazakhstan's claim to 
legitimacy.
    Of course ``stability'' can never be an excuse for dictatorship or 
widespread torture and similar abuses. We simply can never accept the 
hidden premise of the Kazakhstan government's talk of ``stability''--
that human dignity can be bargained away in some exchange for 
``stability.''
    Likewise we cannot accept at face value the claim that Kazakhstan 
is in fact as stable as its government claims--this claim must be 
examined carefully.
    That is what this hearing is about. Too often in Washington, and 
within the OSCE, the Government of Kazakhstan's claim to stability is 
tacitly accepted. And that allows the Government to set itself up as a 
model for other Asian and European countries.
    After last year's events in Tunisia, Egypt, Libya, and Syria, we 
have to look carefully at authoritarian claims to ``stability.''
    All the more so since last month there were riots in Zhanaozen in 
western Kazakhstan, which the authorities put down with deadly force--
at least 16 people were killed, some estimates go as high as 70. Many 
of us have seen the terrible videos circulating on YouTube that clearly 
show government forces firing on fleeing protesters, and beating those 
who fell to the ground. I doubt many Kazakhs will soon forget these 
images.
    RFE/RL reported the harrowing testimony of a 21-year old girl who 
was detained while out looking for her father the night of the riots. 
She described witnessing the torture, abuse, and humiliation of dozens 
of people who had been rounded up and taken to the basement of police 
headquarters, including girls who were stripped naked and dragged into 
an adjoining room. She herself was beaten. She reported what she saw to 
authorities, who returned with her a week later. The basement had been 
scrubbed clean, and the police claimed that nothing had happened. The 
woman's father returned home after two days. He said he had been badly 
beaten by police; he died of his injuries on December 24.
    There are many such stories. Associated Press reported that 
journalists at Zhanaozen's Main Police Department heard screams coming 
from what appeared to be interrogation rooms, while men with bloodied 
faces were lined up in the corridors with their faces against the wall. 
Sadly, reports of police abuse and torture in Kazakhstan are not new. 
In a December 2009 report, the UN special rapporteur on torture 
concluded that ``evidence obtained through torture or ill-treatment is 
commonly used as a basis for conviction.''
    Since the violence in December, the Government of Kazakhstan has 
said it is open to an international investigation, and has said many 
other things that we would expect a responsible democratic government 
to say. It has also established a governmental investigative 
commission.
    I certainly hope the internal investigation will be transparent and 
serious, and that there will be an international investigation soon--
best of all by the OSCE--and that the many good things the Government 
has said since the violence are a harbinger of a new openness to 
reform.
    At the same time we have reason to be skeptical. Just yesterday the 
chief editor of an opposition paper was jailed as part of the 
investigation. So far charges against police have only been for 
stealing cell phones and cash from protesters, and the focus of the 
investigation has been focused instead on the political opposition. 
Access to Zhanaozen itself and to potential witnesses has been severely 
restricted. While some journalists were given access to Zhanaozen on 
December 18 and 19, they reported that they were under close 
supervision and not permitted to speak freely with detainees or 
residents. Prison Reform International, which the Kazakhstani 
Government claims met with detainees and found no evidence of torture, 
told my staff that they only assisted in getting access for local human 
rights monitors to a very limited number of detainees, far below the 
official number of those arrested. Contrary to the government statement 
that no evidence of torture was found, in fact the monitors cited four 
suspected cases.
    There are reports that those who have tried to come forward may 
have been threatened. At least one of the local monitors who visited 
the detainees will no longer discuss it. The young woman I mentioned 
earlier also will no longer speak about her ordeal. The persons who 
filmed the YouTube video from their window reportedly were sought by 
the authorities and have gone into hiding out of fear for their safety. 
Many people reportedly are still missing, but their families are afraid 
to come forward.
    Of course we will also want to talk about the January 15 
parliamentary elections, which the OSCE concluded ``did not meet 
fundamental principles of democratic elections.'' The OSCE detailed 
significant problems, including the exclusion of opposition parties and 
candidates, electoral commissions controlled by the ruling party, media 
bias, restrictions on freedom of assembly, and problems during the 
counting process.
    I have spoken to participants in the Election Observation Mission 
who personally observed outright fraud, including falsification of the 
final protocol in favor of the ruling Nur Otan party. Other American 
observers reported falsification of protocols in Nur Otan's advantage, 
as well as ballot stuffing and people being paid to vote for Nur Otan.

             Prepared Statement of Hon. Benjamin L. Cardin

    Mr. Chairman, I welcome this hearing on Kazakhstan. The Helsinki 
Commission has closely examined that country's record on 
democratization and human rights, especially in connection with 
Astana's ultimately successful bid to chair the OSCE. Today, for the 
first time since Kazakhstan's chairmanship ended, we will consider the 
implications for the country's stability of very interesting events 
that have been unfolding the last few months.
    Until recently, Zhanaozen, in western Kazakhstan, had gotten few 
headlines. But a strike by oil workers led to violence in December, 
triggering a crackdown and the imposition of martial law. According to 
official reports, at least 16 people have been killed; unofficial 
videos have surfaced of police firing at fleeing demonstrators.
    The willingness expressed by Kazakhstan's Government to participate 
in an international investigation was welcome. I hope the OSCE, which 
Kazakhstan chaired in 2010, will have a leading role in efforts to 
uncover what really happened. In any case, it is clear that 
Kazakhstan's Government will have to seriously address social concerns 
in order to prevent any more outbreaks of discontent.
    The other major news story is Kazakhstan's January 15 parliamentary 
election, which has been touted as the beginning of multi-party 
democracy in Central Asia's economic powerhouse. Surely, it is a 
positive development that all the seats in Parliament are no longer 
occupied by the ruling party, Nur Otan, as two other parties will now 
be represented.
    But I would have been more pleased if genuinely opposition 
political parties that sought to participate had been able to do so. As 
many observers have pointed out, the two parties which won seats are 
reputedly ``safe'' from the Government's point of view. And, I would 
have been delighted if the OSCE had been able to certify the election 
as having met OSCE standards. Unfortunately, the OSCE said the election 
did not meet fundamental principles of democratic elections.
    In that connection, I would like to note Kazakhstan's efforts to 
create an alternate narrative of the election. A stream of positive, 
even glowing, reviews of the election has come out of Astana. We are 
accustomed to such assessments from CIS observers but it is frankly 
surprising that Western analysts have come to conclusions so at 
variance with those of the OSCE.
    Mr. Chairman, I very much look forward to the day when the most 
positive views of an election in Kazakhstan legitimately accord with 
the OSCE's judgment. I look forward to hearing from our witnesses.

           Prepared Statement of Ambassador William Courtney

    Chairman Smith, it is an honor to appear before you. I am William 
Courtney, a retired career diplomat. I served as the first U.S. 
Ambassador to Kazakhstan, 1992 to 1995. Later I was Ambassador to 
Georgia, special assistant to the President for Russia, Ukraine, and 
Eurasia, and senior advisor to this distinguished Commission.
    Kazakhstan has a population of over 16 million. Ethnic Kazakhs 
comprise three-fifths, ethnic Slavs one-quarter, and Uzbeks, Uyghurs, 
Tatars, and others the remainder. Given this diversity, the term 
``Kazakhstanis'' best refers to all the people of the country, and 
``Kazakhs'' to the ethnic group.
    In many ways Kazakhstan is blessed. It is larger than Western 
Europe and endowed with a minerals bounty. People tend to pragmatism. 
Ethnic differences are muted, regrettably in part because political 
expression is limited. Rulers encourage inter-ethnic harmony, although 
some Kazakh advantages, such as political dominance, raise concerns. 
Selection to chair the OSCE last year was a mark of the country's 
international respect and weight.
    Kazakhstan has achieved notable economic gains. Modernizing 
reforms, private property, talented people, and booming exports of 
energy and minerals make the country far wealthier than in Soviet 
times. In 2010 according to the World Bank, per capita gross domestic 
product in current U.S. dollars stood at $9,136, slightly lower than 
Russia's $10,440 but three times higher than Ukraine's $3,007.
    These data, however, do not tell the full story. Much wealth 
disappears into corruption. Construction of the extravagant new capital 
in Astana diminishes state funding for the rest of the country. The 
economy is unbalanced. For example, the World Bank reports that labor 
productivity in agriculture is just one percent of that in America.
    Political development in Kazakhstan is stunted by twenty years of 
authoritarian rule. A tragedy last month highlights the risks.
    On December 16, security forces in Zhanaozen, in western 
Kazakhstan, fired on unarmed demonstrators, including striking oil 
workers, killing and wounding scores. A chilling video on YouTube shows 
security forces firing on and beating fleeing people.
    Rather than apologizing, offering amends, and opening a credible 
investigation, the authorities did the opposite. They blamed 
``hooligans,'' shut off communications to the city, and imposed martial 
law. The hard-line response may not have calmed tensions; martial law 
was extended. A former interior minister became the new regional 
governor, a hint of unease about the loyalty of security forces.
    Today--on the date of this hearing--Kazakhstan's chief prosecutor 
announced that criminal charges are being brought against several 
regional police, executive, and state oil company officials. It will be 
important that due process be followed and that judicial proceedings be 
transparent. Otherwise, many Kazakhstanis will wonder whether these 
officials are culpable for the Zhanaozen calamity, or whether they are 
lambs being sacrificed to exculpate the guilt of those higher up or 
better connected.
    The violence was an aberration in the country's generally peaceful 
life. The callous response, however, is symptomatic of a wide gap 
between rulers and ruled, between reality and expectations, and between 
those who live honestly and those who do not.
    In history, Kazakhs do not meekly submit to arbitrary power. In the 
19th century, Russian colonization was slowed by uprisings and wars. In 
World War I many Kazakhs resisted the Tsar's conscription, and then the 
communist takeover. A decade later Kazakhs opposed brutal Soviet 
collectivization of agriculture, such as by killing their own livestock 
rather than turning it over to the state. Over a million Kazakhs 
perished.
    In World War II, Stalin exiled ethnic Germans, Crimean Tatars, and 
North Caucasian Muslims to Kazakhstan. A million Poles were banished 
there. Many of these peoples, starving or ill, were taken in by Kazakhs 
and survived. Vast numbers lost their lives to Soviet cruelty.
    Nikita Khrushchev hurled huge numbers of ethnic Slavs into northern 
Kazakhstan for the wasteful Virgin Lands campaign, aimed at turning 
pasture into a grain belt. Other Slavs built and operated raw materials 
and military facilities. Alexander Solzhenitsyn labored there in a 
prison camp.
    The Soviets used much of Kazakhstan for military purposes. They 
tested nuclear weapons at Semipalatinsk; operated the world's largest 
anthrax factory at Stepnogorsk; tested biological weapons in the open 
air on an island in the Aral Sea; tested anti-ballistic missiles and 
lasers at Sary Shagan; assembled torpedoes in Alma Ata; deployed giant 
SS-18 intercontinental missiles in two locations; and conducted 
ballistic missile tests and space launches from Baykonur.
    Amid the military activity, most of the country was closed. 
Kazakhstanis had few contacts with the outside world. A vital lifeline 
was short-wave broadcasting by Radio Liberty, VOA, BBC, Deutsche Velle, 
and others. VOA broadcasts in Kazakh language ought to be resumed. VOA 
should also create a Russian language service focused on Central Asia. 
Radio Liberty ought to strengthen its valuable Kazakh broadcasts, and 
increase its Russian language broadcasting oriented toward Central 
Asia. Kazakhstan is an important a country and its people need better 
access to trustworthy information.
    After the Soviet collapse Kazakhstan returned nuclear weapons to 
Russia and became a model partner in the Nunn-Lugar program to 
eliminate weapons of mass destruction and their infrastructure. 
Kazakhstan welcomes substantial U.S. and other investment in Caspian 
energy. It is a critical partner in the northern distribution network, 
which provides logistical support to US and NATO forces in Afghanistan.
    Close cooperation on core interests has yielded a productive U.S.-
Kazakhstani strategic relationship, one of America's most valued. Yet, 
as Egypt shows, rulers must retain the consent of the governed in order 
to sustain foreign support. The lesson is salient for Kazakhstan.
    First, the legitimacy of personalized rule is in decline and 
Zhanaozen is accelerating it. Transitions beyond President Nazarbayev, 
now 71, are uncertain. No evident successor has broad stature and 
appeal. Few if any independent groups combine the experience and 
acceptance required for effective political intermediation. None is so 
strong or enduring as, for example, the liberal Yabloko party in 
Russia, or the Muslim Brotherhood in Egypt.
    On January 15 Kazakhstan held elections for a new parliament, but 
no genuine opposition parties were allowed to participate. OSCE 
election monitors found that the elections ``did not meet fundamental 
principles of democratic elections.'' In another anti-democratic step, 
earlier this week security forces raided the office of the opposition 
party, Algha, and the home of its leader. The courageous suffer. Labor 
union lawyer Nataliya Sokolova, and human rights activists Aidos 
Sadykov and Yevgenniy Zhovtis languish in prison. Fortunately 
journalist Ramazan Yesergepov has been released.
    Multiple factors, some unforeseen today, could shape Kazakhstan's 
political evolution. One might be the demonstration effect of the Arab 
awakening. Other factors may include: elites empowered by economic 
liberalization, educated and connected young people, restive citizens 
in western Kazakhstan, Islamic interests, disadvantaged groups, and 
Russia's policies toward neighbors. Kazakhstan's burden of autocracy 
could render its politics less resilient against extremist pressures.
    Second, the accumulation of wealth by President Mubarak and his 
family, and popular resentment of it, have a disturbing parallel in 
Kazakhstan. President Nazarbayev is rightly credited for improving the 
economy, but personal aggrandizement arouses concern and cynicism. 
Moreover, several in his family are multi-
billionaires.
    Third, Zhanaozen may propel more unrest. One risk is western 
Kazakhstan, which does not benefit commensurate with its contribution 
to the economy. Another risk is ethnicity. Zhanaozen was largely 
Kazakh-on-Kazakh violence. If large-scale lethal force were ever turned 
on unarmed ethnic Russians, consequences could be far-reaching. The 
Kremlin is vocal about protecting the interests of Russians abroad. 
Kazakhstan's regions with higher proportions of ethnic Russians lie 
along the border with Russia, a key reason why the capital was moved 
northward.
    In conclusion, political risks in Kazakhstan are rising even as the 
economy expands. The arrogant official response to Zhanaozen suggests 
dulled leadership awareness of human conditions. Repeated promises of 
democratic reforms go unfulfilled. Popular expectations may be climbing 
faster than the brittle political system can accommodate. Limits on 
independent political life weaken safety valves for peaceful change.
    America and Europe are widely respected in Kazakhstan. They should 
bite the bullet and do more to promote political and human freedoms. 
While some may resist, this will be a prudent investment in an 
important country and a friendly people with good long-term prospects.
    I will be pleased to answer any questions you may have and hear 
your further perspectives. Thank you.

                   Prepared Statement of Susan Corke

    Mr. Chairman, Members of the Commission, it is an honor to appear 
before you today to discuss whether Kazakhstan is ``As Stable as Its 
Government Claims?'' at a pivotal moment in that nation's history. I am 
also pleased to appear today in distinguished company with Ambassador 
William Courtney and Dr. Sean Roberts.
    During my years in the State Department's Bureau of Democracy, 
Human Rights and Labor, I worked in common cause with Helsinki 
Commission staff and Freedom House before, during, and after Kazakhstan 
assumed the Chairmanship of the Organization for Security Cooperation 
in Europe (OSCE). In particular, we worked together to press for human 
rights improvements before Kazakhstan assumed the Chairmanship and 
continued to hold the spotlight up throughout the year highlighting 
where the government continued to fall short of its human dimension 
commitments. On the civil society side, Freedom House helped establish 
a coalition of leading Kazakhstani NGOs, the OSCE 2010 coalition that 
produced numerous reports on Kazakhstan's flawed human rights 
peformance as chairman.
    Just over one year ago, Kazakhstan, in concluding its OSCE 
Chairmanship, hosted an OSCE summit in Astana, where Foreign Minister 
Kanat Saudabayev proclaimed that ``this is a sign of the objective 
recognition by the international community of Kazakhstan's impressive 
successes in its socio-economic and democratic development during the 
years of independence and convincing evidence of the leadership of 
Nursulatan Nazarbayev and his contribution to ensuring regional and 
global security. We have endeavoured to fully live up to our motto--
trust, tradition, transparency and tolerance (4 T's)--and be worthy of 
the confidence placed in us by the participating States and meet the 
expectations of the OSCE community.''
    Unfortunately, as we gather today to consider the questions of 
Kazakhstan's stability and its adhesion to human rights commitments and 
its own 4Ts' motto, it seems that the nation is not deserving of the 
OSCE community's confidence. While those who supported Kazakhstan's 
chairmanship argued that it could galvanize human rights reform, more 
than a year after its chairmanship, it has failed to do so. In our 
recently released annual Freedom in the World report Kazakhstan 
continued to earn its ``Not Free'' ranking.
    This week, as we take stock of the situation, additional harsh and 
repressive measures have been launched in Kazakhstan, including raids 
of the opposition Alga party offices and detentions of opposition 
activists and journalists. This follows the OSCE's critical assessment 
the recent parliamentary elections lacked plurality, transparency, 
safeguards against fraud, and respect for electoral procedures.
    Our Freedom House office in Almaty, led by Mr. Vyacheslav Abramov, 
is a small but dedicated staff continuously reporting on and working to 
improve respect for human rights. I will focus today primarily on the 
current human rights situation as gathered from their reports and 
recent events. From what we have heard from our office and our 
partners, Kazakhstan is heading down a path of increasing instability. 
But the recent riots and violence are not simply a random outburst. The 
Kazakhstan International Bureau for Human Rights and the Rule of Law, a 
leading NGO, documented the growth of civic engagement in Kazakhstan in 
2011, and the emergence of ordinary citizens as the leading organizers 
of public assemblies; 78 percent of these were demonstrations on socio-
economic problems of citizens, many of whom had avoided political 
activity in the past. The government severely restricts freedom of 
assembly; 91 percent of assemblies were not authorized by the 
government. This signals that there is growing societal discontent and 
that more people are willing to challenge the government to have their 
voices heard. And if the government continues on its repressive path, 
more peaceful protests will turn to violent ones.
    When a government is dedicated to systematically thwarting 
democratic reforms and failing to observe citizens' fundamental rights, 
it is sowing the seeds for instability. President Nazarbayev has ruled 
Kazakhstan with an iron fist since independence in 1991, and as 
demonstrated again in the recent parliamentary elections, his 
administration remains fixed on retaining power and on withholding it 
from other parties, even as Nazarbayev reaches the ripe age of 72. When 
stability is defined as keeping the lid on, and silencing its citizens, 
it is only a matter of time before the pot starts to boil over. By 
denying moderate voices, the regime is opening the door to extremism 
and violence.

Zhanaozen: Social Unrest

    The international community watched, taken aback, as violence 
erupted December 16 in the city of Zhanaozen (Zhe-na-oh-ZEN), the day 
of Kazakhstan's 20th year of independence from the Soviet Union. For 
those who have been paying attention to Zhanaozen, however, the pot had 
been simmering for a while, and there had been long-standing underlying 
elements of social unrest. An oil strike has been going on since April 
2011, when a large group of oil workers in the western Mangistau region 
of Kazakhstan began to demand higher wages and better working 
conditions. While Kazakhstan has several billionaires, there is not 
much of a middle class, and these strikes signaled that uneven 
distribution of the country's resources was sparking a backlash. 
Starting in May, many workers began camping in the city square in an 
indefinite protest, a challenge to a government that had tried and 
succeeded in squelching dissent. A court found the workers' strike 
illegal, and hundreds were subsequently fired from their posts. In 
August, Natalia Sokolova, a labor lawyer and activist, was accused of 
inciting social discord and sentenced to 6 years' imprisonment for 
doing nothing more than providing counsel to several of the striking 
workers. Freedom House issued a statement and expressed concern that 
Kazakhstan was using the judiciary as a means to silence oppositional 
voices. Despite the strikers' increased coverage in the international 
media, as organizations like Freedom House and celebrities like Sting 
condemned the government's actions, officials began to harass 
journalists trying to cover the strike, and in October, two journalists 
were brutally attacked by unknown assailants.
    On December 16, the situation in Zhanaozen took a deadly turn. 
While local officials claimed police fired at the ground to disperse 
troublemakers interfering with Independence Day celebrations, videos on 
the Internet showed police firing with lethal force at fleeing crowds. 
18 people were reportedly killed. It is not clear where the riots began 
or who initiated them, but a correspondent from Russia's Novaya Gazeta 
newspaper reported that 3,000 oil workers, families, and onlookers were 
in the square when authorities brought additional residents there for 
the celebration. Then, from noon until late into the night, over a 
thousand people reportedly attacked the square and burned down the city 
hall, the offices of oil companies, and shops. On December 17 similar 
events spread to the village of Shetpe, where police also opened fire 
and killed one person.
    The next day, President Nazarbayev took decisive steps to try to 
regain ``stability.'' In Zhanaozen he imposed emergency rule, which he 
extended until January 31 (and essentially cut off communications to 
the outside world). The government promised to find jobs for the oil 
workers. Nazarbayev also dismissed his son-in-law, the head of the 
holding company to which state-owned oil company KazMunaiGaz belongs. 
He demanded a public inquiry into the events in Zhanaozen, and vowed to 
severely punish the perpetrators. The Prosecutor General later said 
that Kazakhstan is ready to allow a United Nations expert group to 
investigate, but at the moment the city remains closed to public 
defenders and journalists, who may enter the city only if official 
permission is granted. Human rights organizations have only now been 
able to begin fully monitoring events and conducting a public 
investigation of law enforcement's firing onto crowds.
    The presidential administration, while it was swift in trying to 
usher in stability, shows no real signs of understanding or addressing 
the root causes of the instability. Nazarbaev's political advisor 
called the disorder in Zhanaozen a provocation against the president 
and then continued to say that criminals caused the trouble December 
16. ``The president dealt with it, and the situation is back to 
normal,'' he said. ``There will be a detailed criminal investigation.'' 
These labor strikes originated in social and economic grievances, but 
as they gathered steam became a political challenge. If Nazarbayev 
wants to prevent a repeat of this violence, he would be wise to pay 
heed to the calls of his people.

January 15th Elections and the Aftermath

    Besides failing to address the root issues of instability in 
Zhanaozen, following a 20 year tradition of holding elections that 
Western observers have continually deemed unfair, Kazakhstan failed 
again to observe democratic norms in the January 15 parliamentary 
elections. The OSCE's election observation mission issued a statement 
that the ``early parliamentary vote did not meet fundamental principles 
of democratic elections'' and expressed disappointment that the 
election was a sham effort to meet stated goals of increasing the 
number of parties in parliament. In the style of authoritarian 
elections, there was a high voter turnout (75%), and observers reported 
standard abuses such as ballot stuffing and misuse of absentee ballots.
    Two days after the election, Nazarbayev issued a fast rebuttal, 
revealing what he really thinks about political modernization and 
dialogue with the West, saying that Kazakhstan would no longer invite 
international experts who criticize its elections. This was interpreted 
as unambiguous criticism of the OSCE. The government of Kazakhstan's 
rhetoric touting transparency and fulfillment of OSCE commitments thus 
seem to be only applicable when there is good news to share and not on 
the day-to-day level.
    In looking to place blame for the growing instability, the 
opposition was the obvious target for the government. In December the 
leaders of the unregistered Alga party in Astana and in the Mangistau 
region were both arrested. After the election, Vladmir Kozlov, the 
leader of Alga in Almaty, predicted that Kazakh authorities would 
continue to try to blame the opposition for the Zhanaozen events. The 
website ``Republika'' posted an anonymous message stating that the 
authorities have chosen the path of repression, that many opposition 
politicians and civil society activists will be arrested.
    On Monday, police and the Committee on National Security (KNB) 
organized a search in at the central office of the Alga party and at 
the homes of Kozlov, his deputy, several party activists, and a youth 
leader. Several were detained, including Kozlov, who was then accused 
of inciting social discord. The National Security Committee said the 
raids against the Alga party were part of an investigation into last 
month's fatal clashes between police and striking oil workers in the 
town of Zhanaozen. But this latest clampdown on the opposition figures 
contravenes the government's promises of political reform and 
liberalization.
    By tightening the screws rather than allowing for political 
competition or dissent, Nazarbayev and his administration on some level 
are admitting their own weakness and vulnerability. A confident leader 
would not need to resort to such tactics.

Religious Extremism and the Government Response

    Throughout 2011, the country was shaken by several attacks, mostly 
in Western Kazakhstan, that were blamed on religious extremists, and 
the government responded by abruptly passing new legislation broadly 
tightening religious freedoms and public expression.
    When I visited Kazakhstan last August, there was a palpable sense 
of unease and fear about what this uptick in religious extremism would 
mean for Kazakhstan. Citizens and the government had been proud of its 
stability and peace in a restive neighborhood and had often touted the 
nation as a model for religious harmony. Human rights activists I spoke 
with warned that speaking publicly about the rise in extremism would 
cross a redline that they feared would provoke the government. There 
was already a sense that the government planned to clamp down tightly 
on religious freedom in response to the attacks and that restrictive 
legislation was underway. The resultant legislation, rushed through 
parliament in only 3 weeks in spite of protests from the OSCE and human 
rights organizations, gives the government unprecedented authority to 
regulate the activities and structures of religious communities and 
forbids prayer or religious expression in government institutions. Some 
additional provisions of the law on religion include:

    <bullet>  Religious literature, as well as groups' registration 
documents, now have to be examined in a specially created Agency for 
Religious Affairs;
    <bullet>  religious associations must agree on the appointment of 
leaders of organizations with a state agency; and
    <bullet>  all religious groups should be re-registered within one 
year of the law's adoption.

    Similar to analogous legislation in neighboring countries, the 
specifics of the laws are poorly defined, leave much room for 
interpretation to local authorities, and empower special ``anti-
terror'' task forces to police mainstream religious groups. Authorities 
say the new law on religion will help combat extremism, but critics 
warn that restrictions under the new law could backfire and fuel 
extremism rather than combat it. How the law is implemented needs to be 
carefully monitored. Authorities express confidence that the new law 
does not violate the rights of believers and religious groups and is 
directed against the Muslim extremist groups.

Law on national security

    Shortly on the heels of the new religion law, with little fanfare 
or room for analysis, the new National Security Act was signed by the 
president this month. The law not only provides for the empowerment of 
special services, especially for operations to combat terrorism, but it 
allows for blocking of the Internet, as well as disabling fixed and 
mobile communications. In addition, the law imposes a vague restriction 
on allowing people ``recognized to be destructive'' to enter 
Kazakhstan; according to a clause, those who ``harm the image of 
Kazakhstan in the international arena'' can be considered 
``destructive.'' There is an obvious concern that this law will thus be 
directed against the human rights organizations and politicians who 
criticize the country at international fora.
Trying to Keep the Lid on Freedom of Expression

    Unlike the government's previously-mentioned hasty steps to crack 
down on dissent and unrest, the new Broadcasting Act was signed by the 
president in January after a year of disregarding recommendations made 
by the OSCE and Kazakhstani civil society organizations.
    While human rights groups were urging the president to veto the 
law, the new law was eventually passed, at least officially, in 
connection with the transition of television and radio broadcasting to 
digital format, but it contains a number of troubling regulations that 
give the state additional control over television and radio channels, 
thereby violating citizens' rights to freely receive and impart 
information. All foreign television and radio stations will be required 
to be registered with an official Kazakh entity, and 50 percent of the 
broadcasts of foreign channels must contain domestic content by 2018. 
One of the more bizarre restrictions is that the government will now 
license all satellite devices, and local authorities may prohibit 
placement of satellite dishes on rooftops if they are not attractive to 
the eye. Human rights groups believe that the law is directed primarily 
against the opposition K+ TV channel, which is broadcast via satellite 
in Kazakhstan, funded by Mukhtar Ablyazov and extremely popular in the 
regions.
    The new restrictive measure occurs in a media environment that is 
already under siege. The government has repeatedly harassed or shut 
down independent media outlets. Libel is a criminal offense, the 
criminal code prohibits insulting the president, and self-censorship is 
widespread. Most media outlets, including publishing houses, are 
controlled or influenced by members of the president's family and other 
powerful groups. In 2011, the government expanded attempts to identify 
websites with supposedly ``destructive'' content, blocking the popular 
blogging sites livejournal.com and liveinternet.ru along with some 20 
other sites in August on charges that they contribute to ``terrorism.''
    The human rights situation in Kazakhstan has eroded in many areas 
over the past year, but following the parliamentary election, the 
situation has become more urgent. Our office in Almaty said that the 
common belief is that NGOs will be raided next by the government. Civil 
society in Kazakhstan had already operated under tightly controlled and 
repressive conditions, with government harassment, including police 
visits and surveillance, of NGO offices and personnel. Real civil 
society efforts have been squeezed out by the GONGOs, which the 
government mobilized to create the impression of a thriving Kazakhstani 
civil society in the West. Kazakhstan's most-prominent human rights 
defender, Evgeniy Zhovtis, remains in prison. The expectation now is 
that things are only going to get worse.
    While in 2010 Kazakhstan's human rights record was under the 
spotlight during its OSCE chairmanship, in 2012 the international 
community moved its focus elsewhere, which has proved to be a dangerous 
miscalculation and which has let the situation unravel all the more.
    Kazakhstan has preferred to view democracy and freedom as public 
relations slogans to boost prestige. It spared no expense in promoting 
itself with advertisement campaigns and high-level consultancies with 
Tony Blair and lobbyists. Admittedly, this has paid some dividends for 
Kazakhstan on policy fronts. The international community hoped that 
giving Kazakhstan the carrot of a prestigious OSCE leadership role as 
well as the accompanying glare of the international spotlight, would 
lead to significant improvements in the country's human rights 
implementation. This has not been the case.
    Despite trying to tout a multi-ethnic population which lives in 
relative harmony (especially in comparison with its neighbors in the 
Ferghana Valley), an essential truth was revealed in yet another 
authoritarian government: governments that cannot meet the political 
and material aspirations of their citizens lose legitimacy. When 
citizens have legitimate grievances without an outlet, when freedoms 
are denied in the name of stability, instability and extremism are 
likely to increase.
    Kazakhstan's ``stability'' was based on the precarious assumptions 
that dissent could be stifled and there was no need to enable a 
peaceful rotation of power among alternative political forces. The 
lesson of the past year is that stability will not be enhanced through 
further repression. It is time to address the political stagnancy and 
lack of an apparent heir after Nazarbayev, officially deemed ``Leader 
for Life.'' It is time for pro-democratic forces within Kazakhstan and 
the international community to start thinking about how to catalyze a 
more democratic and more stable future for the country. Given its 
strategic importance, how Kazakhstan approaches the immediate future 
should be a cause for concern for American, Russian, Central Asian, and 
European policy-makers.
    I would now like to offer five specific recommendations, which have 
been developed in consultation with civil society in Kazakhstan:

    <bullet>  It is important to publicly, at high levels, continue to 
hold the Kazakh authorities to their international obligations--
particularly the fundamental freedoms of expressions and assembly--and 
to require their implementation. Kazakhstan must earn positive 
attention not buy it.
    <bullet>  It is important to express support for civil society in 
Kazakhstan in cases of direct repression against NGOs and their 
activists.
    <bullet>  The time is now to increase material support for civil 
society in Kazakhstan--through funding and participation in various 
programs. Freedom House's office in coalition with other domestic and 
international NGOs has worked hard to try to build space in a 
repressive environment. They need our help more than ever.
    <bullet>  It is important to put pressure on the Kazakh 
authorities, demanding an investigation of the events Zhanaozen openly 
and transparently, including any searches, detentions and arrests.
    <bullet>  It is important to press the government of Kazakhstan to 
put words into action and allow political pluralism and not paint the 
opposition as the enemy. The opposition has announced on January 28 it 
will hold a massive protest rally in Almaty and will try to contest the 
election results in courts. The West should pay attention.

               Prepared Statement of Dr. Sean R. Roberts

    Chairman Smith and members of the Commission, I would like to thank 
you for inviting me here today to speak on this very important and 
timely topic. As I recently wrote in a briefing paper commissioned by 
the Atlantic Council on twenty years of U.S.-Kazkahstani relations, the 
Republic of Kazakhstan is something of an oasis of stability in the 
desert of uncertainty that represents Central Asia. Indeed, this 
stability is also largely the result of smart policies adopted by the 
Government of Kazakhstan over the last twenty years.
    In the early 1990s, the Government of Kazakhstan, with cooperation 
from the United States, divested itself of the nuclear weapons it 
inherited from the Soviet Union. Also in the 1990s, Kazakhstan's 
government was careful to adopt inclusionary policies for its Russian 
minority citizens and to establish close relations with the Russian 
federation, which helped to substantially reduce ethnic tension in the 
heavily Russian-populated north of the country. During the later 1990s 
and into the 2000s, Kazakhstan also adopted substantial liberal 
economic reforms that helped the country use its natural resource 
wealth to stimulate growth and create a vibrant middle-class. All of 
these steps have played a role in making Kazakhstan the strongest and 
most stable country in Central Asia both politically and economically, 
and the Government of Kazakhstan frequently and justifiably takes the 
credit for them.
    Unfortunately, stability is not something a state can merely 
establish once; it is an ongoing duty of governments around the world 
to meet the challenges that they face in keeping their citizens secure. 
This duty requires adapting to changing circumstances and understanding 
the changing needs of citizens. Given the several outbreaks of violence 
that have occurred in the country over the last year, one can 
justifiably ask whether the Government of Kazakhstan today is adapting 
to the new realities the country faces and whether the state is as 
stable as its government suggests. After all, the Kazakhstan of 2012 is 
quite different from that of 1992 or even from that of 2002, but during 
the past twenty years the same President, who continues to be advised 
by many of the same men, has led its government. This is not a recipe 
for an adaptive government and long-term stability.
    In the interest of time, I want to focus on three critical and 
relatively recent changes in Kazakhstan's socio-economic environment 
that, in my opinion, have contributed to the growing violence and 
tension we have seen in the country over the last year. I will also 
note that the country's present government has yet to sufficiently 
address these changes and may be ill-equipped to properly engage them, 
bringing into question whether the violence we have seen this year is 
the beginning of a much less stable Kazakhstan into the future.
    The first change is the rapid growth in the popularity of Islam in 
the country. In the last several years, the re-engagement of Islam by 
the people of Kazakhstan, which has been ongoing since the early 1990s, 
has suddenly become apparent in public spaces throughout the country. 
As somebody who has been visiting the country frequently over the last 
twenty years, for example, I was struck last summer by the number of 
Kazakh women dressed according to Islamic custom in the city of Almaty, 
the most cosmopolitan city in the country. This rapid growth of public 
religiosity is not suggestive of a terrorist threat or even of an 
immediate move towards political Islam, but it does point to a changing 
public culture that is poorly understood by both the government and the 
secular middle-class of the cities. As such, it is also suggestive of a 
growing population for whom the Soviet past, from which Kazakhstan's 
current leadership emerged, holds little authority.
    We know very little about this growing Islamic religiosity in 
Kazakhstan, but it is likely quite diverse and represents a variety of 
different understandings of Islam. While we know even less about the 
alleged Muslim extremists who clashed with authorities in western 
Kazakhstan earlier this year, one must assume that these people were 
representative of at least one part of the population that is 
expressing its belief in Islam more publicly. Again, I will stress that 
I do not consider that these people, and others like them, represent a 
serious terrorist threat to Kazakhstan. Rather, I believe they are 
emblematic of the inability of the present government in Kazakhstan to 
speak to the needs, perspectives, and values of an increasingly 
religious population.
    A second related development in the country is the growth of ethnic 
Kazakh nationalism. Like the growth of religiosity, this is a 
phenomenon that has been on-going since the early 1990s, but it has 
taken on new characteristics in recent years. In particular, the large 
number of ethnic Kazakh Oralman who have come back to the country since 
the early 1990s from exile in China, Mongolia, Iran, and elsewhere are 
now becoming much more integrated into society. They generally have a 
poor knowledge of Russian, are religious, and believe that they should 
have an advantage over non-Kazakhs regarding economic opportunity. This 
situation is increasing ethnic tension in the country as well as 
creating fear amongst Russian-speaking Kazakhs in urban areas who see 
these developments as also promoting the status of Kazakh language.
    While the country's leadership has tried to balance the promotion 
of Kazakh patriotism with policies of multiculturalism since 
independence, the growth of Kazakh language use and Kazakh nationalism 
are developments they are not well placed to engage given their 
political education in a Soviet system that shunned nationalist 
politics. Furthermore, while the ethnic tension created by these 
developments has not yet exploded into mass violence, it has already 
manifested itself in violent clashes between Kazakhs and Uyghurs in the 
area of Kazakhstan between Almaty and the Chinese border.
    Finally, and perhaps most ominous for the present government, 
Kazakhstan is beginning to face a crisis of rising economic 
expectations that are unmet. While Kazakhstan is certainly the most 
economically viable country in Central Asia, the country's middle-class 
and skilled laborers have come to expect their standard of living to 
improve on a regular basis after a decade of rapid economic growth. A 
combination of the global financial crisis, a leveling off of 
Kazakhstan's post-transition growth, and the bust of a substantial 
housing market bubble have stunted these improvements for many citizens 
in the country over the last several years. Given the awareness of the 
income gulf in the country, these unmet expectations for improved 
standards of living have resulted in increased dissatisfaction with the 
current economic situation in the country among the middle-class and 
skilled laborers. This situation undoubtedly contributed to the labor 
strikes we saw in the west of the country this year, and the 
government's violent reaction to these strikes shows just how 
unprepared the present Government of Kazakhstan is to deal with such 
dissatisfaction.
    It should be noted that these changes in Kazakhstan's socio-
economic environment are not extreme and are unlikely to immediately 
cause widespread unrest in the country. In fact, in a democratic 
society, such discord and socio-economic dynamism is expected, and 
politicians and different political parties compete to provide the best 
solutions to them. In Kazakhstan, however, the stagnant political 
system has no mechanism to adapt to such dynamic changes. Furthermore, 
at a time when many authoritarian states have sought to implement at 
least gradual liberalization of their political systems in response to 
the ``Arab Spring,'' Kazakhstan has shown no such desire, instead 
holding controlled elections this past year that differed little from 
those held in the country over the last twenty years.
    In my opinion, the growing dynamism of Kazakhstan's society coupled 
with its stagnant political system could create a dangerous scenario 
when the country finally decides, or is forced to decide, on a strategy 
for presidential succession. With a diversification of powerful 
interests in the country, significant natural resource wealth at stake, 
and no experience with competitive politics, such a succession could 
become a flashpoint for substantial conflict and sustained instability.
    In conclusion, I will note that I believe that Kazakhstan has the 
capacity to adapt to these changes given the country's rich human 
resources and relatively broad economic prosperity. To do so, however, 
the country must begin taking measures towards a liberalization of its 
political system now. The gradual development of a competitive and 
transparent multi-party political system now can prepare the country to 
deal with presidential succession, but if Kazakhstan waits until a 
succession crisis ensues to implement such reforms, I fear it may be 
too late.

            Prepared Statement of Ambassador Erlan Idrissov

    Thank you Chairman Smith, Senator Cardin and other Members of the 
Helsinki Commission, for holding this important hearing on the state of 
Human Rights in Kazakhstan. We appreciate that our close friend and 
ally, the United States, is concerned about the recent events in 
Zhanaozen and the overall stability of Kazakhstan. On behalf of my 
government, I want to address those concerns and outline for you the 
steps Kazakhstan is taking to ensure continued stability in our country 
and the events that took place on December 16.
    The support of the United States for our young democracy over the 
past twenty years has been essential to our development. We look 
forward to another 20 years of close engagement and partnership on 
these issues as Kazakhstan grows in its independence.
    As you are well aware, the United States was the first country to 
recognize Kazakhstan's sovereign independence from the Soviet Union on 
December 25, 1991. As Kazakhstan has just celebrated its 20th 
anniversary of independence, we look back with pride over the progress 
we have made over such a short period of time. Democracy is about more 
than laws and institutions; it is fundamentally about custom, habit, 
and culture, supported by property rights, and backed by the rule of 
law. When given the opportunity 20 years ago to choose how we wanted to 
govern ourselves, we chose democracy because we believe it is the best 
way to run our society, ensure the prosperity of our people and 
guarantee the long-term security and success of our state. While 
Kazakhstan's record in all of these areas is not perfect, we are proud 
of the progress we have made.
    Kazakhstan's ties with the United States are close, multi-faceted 
and enduring. We have shared objectives of enhanced political, 
economic, infrastructure, and security linkages and cooperation that 
can mutually benefit our nations. We have achieved much towards 
building institutional capacity and making our continued progress in 
areas such as education, civil society, media freedom and local 
governance.
    Kazakhstan is committed to being a responsible member of the 
international community. After suffering through almost 500 Soviet 
nuclear tests that destroyed the lives of 1.5 million people, 
Kazakhstan made the unprecedented move, upon independence, to 
voluntarily shut down its nuclear test site and renounce the world's 
fourth largest nuclear arsenal. At this time, our nuclear arsenal was 
larger than the nuclear weapons stockpiles of Great Britain, France, 
and China combined. President Nazarbayev stood up to intense pressure 
from outside forces pushing for Kazakhstan to keep our nuclear weapons 
and become the first Muslim nation with nuclear capabilities. He made 
this decision because he knew that responsible engagement in the 
international community was far more important than having a large 
nuclear stockpile.
    Today, Kazakhstan is actively collaborating with the United States 
in bringing peace and stability to Afghanistan. When operations at the 
U.S. Air Force Base at Manas were threatened by the political 
instability in Kyrgyzstan in 2010, the Kazakh government offered our 
airspace for expedited U.S. military flights to Afghanistan.
    We are an essential part of and proud partners in the Northern 
Distribution Networks, which provides supply lines to coalition troops 
in northern Afghanistan.
    The Eurasian region has seen instability over the past year. In 
Kyrgyzstan political unrest in April 2010 led to the ouster of 
President Bakiyev. The Kazakh government worked with the United States, 
Russia, the European Union and the United Nations to address the 
turmoil as it was taking place. Working with the transition government 
we encouraged them to work together to return normalcy to the country 
by restoring political institutions and basic economic activity. We 
were pleased with the outcome of the Presidential elections last year 
and are committed to working with President Atambayev to promote 
stability in the region.
    As we have shown our commitment to promoting stability throughout 
the region we are equally committed to promoting stability within our 
borders. For this reason, my government was deeply concerned about the 
events in Western Kazakhstan last December. The government is still 
conducting its investigation, but as far as we can tell a small group 
of people violently interrupted a national celebration. While hundreds 
of other citizens happily commemorated Kazakhstan's 20th year of 
independence from the Soviet Union, agitators burned police cars and 
government buildings for reasons that remain unclear. This disturbance, 
which I am sad to say resulted in at least 16 deaths and many injuries, 
is an example of the growing pains that our young nation is going 
through. Oil workers in Zhanaozen have been pressing for higher wages 
and better conditions and the government has been working to address 
their concerns. Nevertheless, the rioters, possibly instigated by 
outsiders, chose destruction rather than negotiation.
    We deeply regret that this incident resulted in the loss of life. 
In response to this violence, President Nazarbayev called for a full 
investigation into the matter within 24 hours. Establishing government 
commission, headed by First Vice-Prime Minister Shukeyev, and 
collaborating with the investigation group led by Interior Minister 
Kasimov, the Kazakh government is looking forward to receiving a full 
report of what exactly took place. These groups are not only 
investigating the rioters' actions, but are also conducting a thorough 
investigation into the police forces actions throughout this event. 
Moreover, international experts have been invited by us to participate 
in the investigation process, including from FBI and UN.
    The Kazakh government is committed to accountability. Those found 
responsible for this violence will be brought to trial and must be held 
accountable for their actions. We will pursue the full weight of the 
law against anyone found guilty, including those in the security forces 
and government.
    In order to address the unrest and ongoing disputes with oil 
workers, the unemployed oil workers in the region have been offered new 
jobs. In addition, the Government and company officials who had failed 
to address these grievances have been removed from their positions and 
replaced. The newly appointed Minister of Economic Development and 
Trade, Bakhytzhan Sagintayev, is overseeing a seven-point action plan 
to rehabilitate the region. This plan is working to address problems of 
rebuilding damaged property, improving food security, and improving 
residents living conditions.
    These actions taken to restore stability have already seen some 
results. The region had regained sufficient stability to participate 
fully in Parliamentary elections held last week, and citizens of the 
region were given the opportunity to participate fully in those 
elections.
    Zhanaozen violence came out of the blue and shocked the entire 
nation. But observers noted that despite this the Government displayed 
quite a mature behavior and reaction to the events, making special 
emphasis that the crisis is addressed and reported in the most 
transparent, open and fair manner.
    I have personally held press briefings here in Washington to 
discuss these events and the government's response to them. To ensure 
transparency, beginning on the day after the riots, I have published on 
the Embassy website (www.kazakhembus.com) a timeline of events on that 
day, and updates regarding the investigation, as they are available.
    The Parliamentary elections that took place January 15 are further 
proof that Kazakhstan is making incremental progress in developing its 
democracy. For the first time in history Kazakhstan has elected a 
multi-party Parliament. This shows great movement in the right 
direction for Kazakhstan, in terms of building political pluralism, 
strengthening the rule of law and developing democratic institutions. 
Over 75 percent of the eligible population voted in the election, and 
more than half of the Kazakh population living abroad participated by 
voting at polling stations in diplomatic and consular representation 
offices. In addition, the people of Western Kazakhstan turned out in 
large numbers to vote. Various international observers commented on the 
high organizational level of the elections and generally praised them. 
The elections were monitored by 819 international observers. Those 
include 309 representatives of the OSCE/ODIHR, 262 from the CIS 
Observer Mission, 46 from the OSCE Parliamentary Assembly, 15 from the 
PACE, eleven from the SCO Observer Mission, nine from the Cooperation 
Council of Turkic Speaking States, seven from the OIC, ten from the 
TURKPA, and 150 others from 29 countries. In addition, 156 foreign 
media representatives covered the elections. These figures show that 
the elections were open and transparent. All international 
organizations have made independent assessments and conclusions based 
on their own observation of the electoral process.
    OSCE issued a critical Statement on Preliminary Findings and 
Conclusions. But even OSCE's assessment could not ignore improvements. 
In particular, OSCE said: ``The elections were well administered at the 
technical level and the observers noted legal changes aimed at ensuring 
representation of at least a second party in parliament, but the 
authorities did not provide the necessary conditions for the conduct of 
genuinely pluralistic elections.'' Despite these assessments from OSCE 
ODIHR, the outcome is clear: Kazakhstan has made a major step forward 
to strengthen its multiparty and more robust democracy.
    Kazakhstan is uniquely positioned in a region of the world that is 
fraught with instability and poor governance. Amidst the uncertainty 
however, Kazakhstan is establishing a stable democracy. We are not 
perfect, but we are a mature government. It takes a long time to 
develop the institutions and cultural habits that make up democracy as 
westerners know it. We make progress towards that goal every year. 
Kazakhstan has benefited from significant progress in a short period of 
time in part because we have focused on strengthening our economy. A 
strong economy is the necessary first step toward democracy. We started 
out, twenty years ago, with hyperinflation, poverty and high 
unemployment. Today we are the fastest growing and most reliable 
economy in our region.
    Developing a fully functioning democracy is not easy work, and it 
will not happen overnight. However, Kazakhstan is committed to pursuing 
the ideals of freedom, rule of law, and economic growth. Our government 
will take full responsibility and demand accountability when it is 
found to have been wrong. However, we are also committed to protecting 
our citizens from overzealous activists who choose violence over 
dialogue. We are thankful for the support and partnership of the United 
States and hope to strengthen our bilateral relationship as we work to 
address challenges together.
    I appreciate the opportunity to share the perspective of my 
Government with you.
    In addition, in our continuing effort to be open and transparent 
about the violence last December in western Kazakhstan, below please 
find the complete report by the Prosecutor General. It [is] noteworthy 
reading because of its balance and fairness.

25 January 2012

Statement by the Prosecutor General of the Republic of Kazakhstan on 
the events that took place in the town of Zhanaozen on Dec. 16, 2011

    On the 16th of December 2011 in the town of Zhanaozen in Mangystau 
province during the celebration of the Independence Day of the Republic 
of Kazakhstan, a group of former workers of the ``OzenMunaiGaz'' oil 
producing enterprise--with the support of youngsters--started to loot 
and set fires in the Central Square.
    As a result, 125 facilities were set on fire, damaged or looted, 
including offices of the mayors of Zhanaozen and Tenge. Also damaged 
were a Pension distribution center, police stations, an office of 
``OzenMunaiGaz,'' the ``Aruana'' hotel, the ``Sulpak,'' ``Atlant'' and 
``Sholpan'' shopping centers, five bank offices, nine ATM machines, 21 
vehicles, apartment buildings and numerous facilities that belong to 
small and medium sized businesses.
    The damage caused to the state, companies and individuals ran in 
the billions of tenges.
    In order to end mass disorder and to protect civilians, the command 
of the Department of Internal Affairs of the province sent a police 
squad that was attacked by the crowd with firearms and knives, stones, 
sticks and Molotov cocktails.
    The police, after several warning shots, used weapons against the 
rioters.
    As a result of the clashes, 64 persons received gunshot wounds, 14 
persons died. The death of two persons mentioned in media reporters was 
not related to the disturbances.
    35 police officers received various injuries.

                                      *  *  *

    By the instruction of the Head of the State, in order to 
investigate the facts of the disturbances as well as the reasons and 
conditions of their development, an inter-agency investigation team 
under the special prosecutor was established and is operating now.
    Six organizers of the disturbances have been identified--
Saktaganov, Dzharylgasinov, Irmuhanov, Dosmagambetov, Utkilov and 
Tuletaeva--and all have been charged with Part 1 Chapter 241 of the 
Criminal code and all are under arrest.
    Twenty three active participants of the disturbances and 11 
individuals who set fires and looted have also been identified and 
arrested. Most of them confirmed the fact that they helped organize and 
participated in the disturbances.
    They said that they were preparing for the insurgencies in advance 
and worked with a group of young people who prepared bottles of Molotov 
cocktails and armed themselves with improvised weapons.
    In the course of the investigation--and following an appeal--softer 
treatment was given to 11 individuals, short of arrest. The work to 
identify other organizers and participants of the disturbances 
continues.

                                      *  *  *

    Simultaneously, by the order of the Head of the State, the 
legitimacy of the actions of the police officers who took part in 
restoring public order is being examined.
    Special attention is being given to the use of weapons.
    The investigation has shown that in most cases police officers 
acted in accordance with law under a real threat to the lives and 
health both of civilians and the police officers themselves.
    Nevertheless, in some cases, use of weapons and special devices by 
the police was of disproportional character, reaction to the acts of 
the attackers was unequal to the threat thus leading to death and 
injures of citizens.
    For the improper performance of his duties, the deputy head of the 
Department of Internal Affairs (DIA) of Mangystau province Utegaliev, 
who was in charge of the police squad, is being brought to criminal 
account.
    For the use of a weapon with excess of authority that lead to the 
death of people, the following are being brought to criminal account:

    <bullet>  head of the anti-extremist division of the DIA of 
Mangystau province Bagdabaev;
    <bullet>  first deputy head of the Office of the Internal Affairs 
of the town of Zhanaozen Bakytkaliuly;
    <bullet>  police inspector of DIA of Mangystau province Zholdybaev.

    The death of Kenzhebaev Bazarbai, who according to the statement of 
his relatives died because of the bodily injures that he suffered in 
the Temporary Detention Facility of the Office of the Internal Affairs 
of the town of Zhanaozen, was evaluated.
    As a result, the Head of the Temporary Detention Facility of the 
Office of the Internal Affairs of the town of Zhanaozen Temirov, who 
allowed illegal detention of Kenzhebaev and did not arrange timely 
hospitalization for the latter, is being brought to criminal account.
    Also, measures are being taken to identify those who beat the 
deceased.

                                      *  *  *

    Illegal actions of the local executive officials and the heads of 
oil enterprises contributed to the tension that resulted in the 
disturbances.
    Financial police discovered that the abovementioned officials, 
contrary to the interests of the people of the town, for several years 
had been stealing money allocated for social and economic support of 
the local population and workers of the oil industry.
    The investigation reveals that both the former and the current 
mayors of the town of Zhanaozen Babahanov and Sarbopeev had been 
stealing money through the ``Zhanashyr'' and ``Zharylkau'' public 
endowments.
    The mentioned officials and heads of endowments are being brought 
to criminal account.
    A criminal case on clause ``b'' of part 3 of chapter 176 of the 
Criminal code has been started against heads of JSC ``EP''Kazmunaigaz'' 
and ``Kompaniya Munai Ecologiya'' LTD Mirishnikov and Baimuhambetov on 
the evidence of the theft of 335 million tenges that belongs to JSC 
``EP"Kazmunaigaz''.
    A criminal case on clause ``b'' of part 3 of chapter 176 of the 
Criminal code is under investigation against former director of 
``OzenMunaiGaz'' Eshmanov, his deputy Markabaev, who are accused of 
stealing 127 million tenges that belongs to JSC ``EP''Kazmunaigaz''--in 
collusion with director of ``Burgylau'' LTD Seitmagambetov.

                                      *  *  *

    One of the reasons of the disturbances was active efforts of some 
individuals who persuaded fired workers to continue protests and to 
violently oppose the authorities.
    A Committee of national security has started to investigate a 
criminal case in accordance with part 3 of chapter 164 of the Criminal 
Code.
    During the investigation a number of leaders and active members of 
the unregistered public unions ``Alga'' and ``Halyk Maidany'' Kozlov, 
Amirova and Sapargali, who are suspected in inciting social hatred, 
have been detained.

                                      *  *  *

    Events that took place in the village of Shetpe need a separate 
comment.
    On the 17th of December 2011 a group of people blocked a railroad 
connection, disassembled the railroad sections and damaged facilities 
of transport infrastructure at a railroad station of Shetpe in 
Mangystau province.
    These actions infringed the normal operation of the transport for 
several hours.
    When police tried to prevent the illegal actions, they were 
attacked by individuals who used weapons, Molotov cocktails and stones; 
5 police officers received various injures and burns.
    After several warning shots police were forced to use weapons. 11 
of the attackers were wounded, 1 died.
    The investigation had come to the decision that in this case the 
use of weapons was legal.
    Three individuals--Bakytzhan, Sabirbaev and Zhilkishiev--are being 
brought to criminal account for organizing disturbances and for the use 
of violence against authorities.
    Another 12 individuals were charged with participation in mass 
disorder, use of violence against the representatives of authority and 
damaging means of transportation and railroads.

                                      *  *  *

    Investigations on all the mentioned cases continue. The results of 
the investigations will be reported regularly.

          Statement From the Central Council of People's Front

January 24, 2012

Statement regarding arrests of Alga People's Party and People's Front 
activists

    On January 23, 2012, the Committee of National Security (KNB) 
raided the office of Alga People's party and homes of Vladimir Kozlov, 
Mikhail Sizov, Gulzhan Lepisova, Askar Tokmurzin, as well as People's 
Front activists Igor Vinyavskiy and Zhanbolat Mamay.
    After that Vladimir Kozlov and Igor Vinyavskiy were arrested on 
charges of inciting social unrest and calling for the violent overthrow 
and change of the constitutional order by force and violation of the 
unity in the Republic of Kazakhstan. We view these actions as political 
provocations by KNB to intimidate our activists, to undermine activity 
of the Alga People's Party and People's Front and to stop supporting 
people who participated in peaceful social protest in Zhanaozen and who 
were shot by the police on December 16, 2011.
    With these actions, KNB confirms a fact that Nazarbayev and his law 
enforcement agencies were not planning and will not conduct an 
objective investigation of the Mangistau tragedy. But on the other hand 
they try to shift a responsibility for what happened out there on 
strikers themselves and those who helped them effectively protect their 
political and human rights.
    This means that our fellow party members will face a politically-
motivated and legalized tyranny because the investigation is managed by 
those who gave the order to open gunfire on December 16-18 and it 
conducted by those who detained, tortured and beaten our fellow 
citizens, beating testimonies out of them forcibly required by the 
Akorda.
    To save our party members from the Nazarbayev's repression, as well 
as to rescue victims of the December 16-18 tragedy from police reprisal 
is possible by breaking out the informational blockade and make public 
all facts about what happened in in Zhanaozen and Shetpe,and solidarity 
support by the Kazakhstani and international societies.

    Therefore we call upon all citizens of Kazakhstan, NGOs and 
political forces:

    <bullet>  To support our party members.
    <bullet>  To disseminate information about the outbreak of police 
brutality and Nazarbayev's lawlessness.
    <bullet>  To send us and independent media outlets information 
about events in Zhanaozen and Shetpe, eye-witness and documented 
evidences that the death toll there is higher than official one, and 
that the Akorda is trying to hide it to weaken and undermine the 
resentment of the bloody action as well as facts that prove the 
innocence of our fellow party members to the bloody events.
    <bullet>  To support victims of the Mangistau tragedy to help them 
break the information blockade, ease the pressure on them from the 
police state apparatus, to help them survive the incident and find the 
strength to live.

    We also call upon the diplomatic offices of democratic countries:

    <bullet>  To inform their countries' political leadership on 
transformation of Kazakhstan's ``managed democracy"'' into a 
totalitarian state.
    <bullet>  To protest against recurrent violation of citizens' human 
and political rights by the Kazakhstani authorities.

    We urge the European Parliament and European Commission:

    <bullet>  To form an International Commission to investigate the 
December 16-18, 2011 events in Zhanaozen and Shetpe, and in case of 
refusal by Nazarbayev to allow conduct a full and fair investigation in 
Kazakhstan they should initiate a case at the International Criminal 
Court in the Hague.
    <bullet>  To adopt a resolution in support of the Mangistau tragedy 
victims and in defense of the democratic forces of Kazakhstan, 
defending the right to freedom of speech, assembly, procession and 
other fundamental human rights.

    We also urge the OSCE and international human rights organizations:

    <bullet>  To express their negative position to a recent outbreak 
of police lawlessness in Kazakhstan.
    <bullet>  To dispatch their representatives to the Mangistau region 
after the state of emergency is lifted to study the situation there and 
to participate in the trials of activists of the democratic forces whom 
Nazarbayev and his law enforcement agencies are trying to make 
responsible for what happened there on December 16-18, 2011.
    We ask foreign non-governmental organizations and media outlets:

    <bullet>  To pay attention to the transformation of Kazakhstan into 
a police state, and Nazarbayev to a dictator of the Arab type, who 
stays in power only because of police brutality and widespreading the 
fear.
    <bullet>  To provide information and moral support to the 
democratic forces of Kazakhstan and Kazakhstani civil society in their 
efforts to turn the country to democracy path, rule of law, justice and 
harmony.

The Central Council of People's Front

                                 [all]





                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
